   United States Department of Agriculture
   Office of Inspector General




Farm Bill: Issues to Consider
for Reauthorization




                                             Report 50099-0001-10
                                             April 2012
                          United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250

April 23, 2012

INFORMATIONAL MEMORANDUM FOR THE SECRETARY AND DEPUTY
SECRETARY


FROM:          Phyllis K. Fong
               Inspector General

SUBJECT:       Farm Bill: Issues to Consider for Reauthorization


The Government Accountability Office (GAO) and the Office of Inspector General (OIG) seek
to enhance efficiency, effectiveness, accountability, and transparency in the Federal Government.
As Congress debates ways to address the long-term fiscal imbalance, it becomes even more
critical that we focus our efforts on identifying opportunities for cost-savings and for improving
programs. As budgets shrink, every dollar counts.

In this spirit, and in anticipation of upcoming deliberations over the 2012 Farm Bill, GAO and
OIG are issuing companion reports. They present the following set of principles to assess the
integrity, efficiency, and effectiveness of programs in this Farm Bill:

   ·   Relevance. Does the program concern an issue of national interest? Is the program
       consistent with current statutes and international agreements? Have the domestic and
       international food and agriculture sectors changed significantly, or are they expected to
       change, in ways that affect the program’s purpose?

   ·   Distinctiveness. Is the program unique and free from overlap or duplication with other
       programs? Is it well-coordinated with similar programs?

   ·   Targeting. Is the program’s distribution of benefits consistent with contemporary
       assessments of needs?

   ·   Affordability. Is the program affordable, given the Nation’s severe budgetary
       constraints? Is it using the most efficient, cost-effective approaches?

   ·   Effectiveness. Are program goals clear, with a direct connection to policies, resource
       allocations, and actions? Does the program demonstrate measurable progress towards its
       goals? Is it generally free of unintended consequences, including ecological, social, or
       economic effects? Does the program allow for adjustments to changes in markets?
INFORMATIONAL MEMORANDUM FOR THE SECRETARY AND DEPUTY
SECRETARY
Page 2


   ·   Oversight. Does the program have mechanisms, such as internal controls, to monitor
       compliance and help minimize fraud, waste, and abuse in areas where these are most
       likely to occur?

In the context of these principles, our companion reports summarize key GAO and OIG findings
related to Farm Bill programs. It is our hope that the principles prove useful in guiding
consideration of each program and potential program. Similarly, the summaries of GAO and
OIG findings should help Congress make well-informed decisions about program design, while
continuing to maintain the safety and security of the Nation’s food supply, promote U.S. exports,
support renewable energy and conservation, and enhance economic growth in rural communities.

We note that this report is a compilation of previously issued OIG reports that have been
discussed with agency and departmental management. These reports are publicly available and,
in preparing this report, we did not conduct any additional audit or investigative work. We
recognize that agencies have reported to the Office of the Chief Financial Officer the actions they
have taken to implement agreed upon corrective actions in response to our recommendations.
However, our work to develop this report did not evaluate the adequacy and sufficiency of any
actions taken.

If you have any questions or would like to discuss this report, please contact me at
(202) 720-8001 or Deputy Inspector General David Gray at (202) 720-7431. You or your staff
may also contact Assistant Inspector General for Audit, Gil H. Harden at (202) 720-6945, or
Assistant Inspector General for Investigations, Karen Ellis at (202) 702-3306.

Attachment

cc:
Krysta Harden, Chief of Staff to the Secretary
Suzanne Palmieri, Chief of Staff to the Deputy Secretary
Michael T. Scuse, Acting Under Secretary, Farm and Foreign Agricultural Services
Kevin Concannon, Under Secretary, Food, Nutrition, and Consumer Services
Elisabeth A. Hagen, Under Secretary, Food Safety
Ed Avalos, Under Secretary, Marketing and Regulatory Programs
Harris Sherman, Under Secretary, Natural Resources and Environment
Cathy Woteki, Under Secretary, Research, Education and Economics
Dallas Tonsager, Under Secretary, Rural Development
Table of Contents

Executive Summary .................................................................................................1
Overview of Titles in the 2008 Farm Bill ...............................................................7
Commodity Programs ...........................................................................................11
Conservation...........................................................................................................14
Trade .......................................................................................................................18
Nutrition..................................................................................................................22
Credit.......................................................................................................................26
Rural Development ................................................................................................28
Research and Related Matters..............................................................................31
Energy .....................................................................................................................34
Horticulture and Organic Agriculture ................................................................36
Livestock .................................................................................................................39
Crop Insurance and Disaster Assistance Programs ...........................................42
Miscellaneous ..........................................................................................................47
Appendix I: Scope and Methodology ..................................................................51
Appendix II: List of Related USDA OIG Products ...........................................52
Appendix III: List of Related GAO Products ....................................................69
Abbreviations .........................................................................................................81
Farm Bill: Issues to Consider for Reauthorization

Executive Summary

Introduction

In the early 1930s, when American agriculture was hit hard by drought and economic disaster,
and farm foreclosures occurred every day, Congress enacted agricultural legislation to, among
other things, protect farmers against the risks of bad weather and low crop prices. Since then,
Congress has periodically passed farm bills to help farmers manage the risks that come with
farming and has added programs through these bills that are to provide domestic and
international food assistance, promote economic development in rural areas, and help advance
alternatives to petroleum fuel, among other things.

The most recent farm bill—the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill)—
included a wide variety of programs, and its major provisions are expected to cost about
$402 billion over 5 years, according to a 2010 estimate by the Congressional Research Service.
As Congress prepares to pass a new farm bill in 2012, severe budget constraints are likely to
shape deliberations. In the fall of 2011, the Joint Select Committee on Deficit Reduction (Joint
Committee) worked to identify ways to cut Federal spending. Members of Congress, the
Administration, and several agricultural groups released proposals on modifying farm bill
programs, including potential areas for budget cuts. Many of the proposals target farm
programs, which account for a significant amount of funding under the farm bill. The leadership
of the House and Senate Agriculture Committees sent a letter to the Joint Committee
recommending a net deficit reduction of $23 billion from mandatory programs within their
jurisdiction. Ultimately, the Joint Committee did not reach consensus on deficit reduction, but
the dialogue it engendered might lay the groundwork for the upcoming debate over the design of
the next farm bill.

The Department of Agriculture’s Office of Inspector General (OIG) has reported findings and
recommendations in many areas to strengthen farm bill programs. The Government
Accountability Office (GAO) has also previously reported that some farm bill programs offer
opportunities for cost savings, could be delivered more efficiently and effectively, or may be
working at cross purposes.1 In this context, this report identifies principles OIG and GAO have
found to be significant to integrity, effectiveness, and efficiency in farm bill programs since
October 2003.2




1
  For example, see Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars, and
Enhance Revenue (GAO-11-318SP, March 1, 2011).
2
  The 2002 Farm Bill was enacted in January 2002. OIG’s scope for this report included audits that were released
after October 2003 to provide time for any new programs to be implemented and to generate auditable activity.

                                                                    REPORT NUMBER 50099-0001-10                1
Principles Identified as Significant to Integrity, Effectiveness, and Efficiency in Farm
Bill Programs

OIG worked on this review in conjunction with GAO, which developed a list of principles and
associated key questions that could be applicable to Congress’ deliberations for the 2012 Farm
Bill. They are as follows:

·   Relevance. Does the program concern an issue of national interest? Is the program
    consistent with current statutes and international agreements? Have the domestic and
    international food and agriculture sectors changed significantly, or are they expected to
    change in ways that affect the program’s purpose?
·   Distinctiveness. Is the program unique and free from overlap or duplication with other
    programs? Is it well-coordinated with similar programs?
·   Targeting. Is the program’s benefit distribution consistent with contemporary need
    assessments?
·   Affordability. Is the program affordable, given the Nation’s severe budgetary constraints? Is
    it using the most efficient, cost-effective approaches?
·   Effectiveness. Are program goals clear, with a direct connection to policies, resource
    allocations, and actions? Does the program demonstrate measurable progress towards its
    goals? Is it generally free of unintended consequences, including ecological, social, or
    economic effects? Does the program allow for adjustments to changes in markets?
·   Oversight. Does the program have mechanisms, such as internal controls, to monitor
    compliance and help minimize fraud, waste, and abuse in areas where these are most likely to
    occur?

OIG identified all audits related to farm bill programs that we issued from October 2003 to
February 2012 (see Appendix II). From these, we selected audits with results that could be
beneficial to decision making for the next farm bill. Once we identified the audits to be included
in this report, we reviewed the scope, findings, and recommendations of those reports to identify
the applicable principle(s) related to each audit.3 We then summarized our findings and
highlighted the relevant principles as they apply to the individual titles that organize the farm
bill. The summaries correspond to most, but not all, of the titles in the 2008 Farm Bill because,
since 2003, USDA OIG’s audit work has not resulted in significant reported findings relevant to
a few farm bill titles.4 USDA OIG has also provided examples of our most relevant investigative
cases. These examples are intended to illustrate the types of cases that typically occur in these
programs, and are not a comprehensive list of all investigations under each title. OIG did not
have reportable investigative work for some titles of the farm bill as well. We also requested
comments on a draft of this report from USDA officials, who provided technical comments that
we incorporated as appropriate.


3
  According to the Office of the Chief Financial Officer, 20 of the 40 audits included in this report have had
corrective actions taken on all recommendations. We did not evaluate the sufficiency of any corrective actions
implemented as a result of our audit recommendations, and therefore have not made any statements regarding the
results of corrective actions in this report.
4
  USDA OIG has not produced a significant corresponding body of work since 2003 for the following 2008 Farm
Bill titles: Title VIII (Forestry), Title XIII (Commodity Futures), and Title XV (Trade and Taxes).

2     REPORT NUMBER 50099-0001-10
Conclusion

OIG developed this report in collaboration with GAO to present audit and investigation results
that could be beneficial to farm bill decision makers. Through its implementation of the farm
bill, USDA provides essential services for farmers, a nutritional safety net for low-income
Americans, and protection for our environment, among many other activities. In recent years,
USDA agencies have made steady progress to decrease payment error rates, create dynamic
information technology (IT) systems, and analyze data to improve program administration and
monitoring activities. For example, the Supplemental Nutrition Assistance Program (SNAP) has
decreased its error rate from 8.7 percent to 3.8 percent over the past 10 years; the Food Safety
and Inspection Service (FSIS) is implementing a new inspection system designed to improve risk
analysis; and several agencies began participating in crop acreage reporting and data
streamlining initiatives. While the Department continues to make progress in many areas, our
work in the past eight years has identified many opportunities to improve the efficiency and
effectiveness of USDA programs, realize cost savings, and reduce overlap between programs.

Efficiency and Effectiveness: One of the key areas OIG examines is the internal control system
of USDA agencies. Internal controls consist of the policies, procedures, and organizational
structures that collectively determine how a program is implemented and how its requirements
are met. These controls, along with IT systems, are critical to a program’s efficiency and
effectiveness. OIG’s August 2011 USDA Management Challenges report found that, “USDA
agencies have tended to resolve individual issues instead of strengthening systemically weak
controls.” For example, our audits of the Risk Management Agency (RMA) have found several
weaknesses in how the agency ensures that participants comply with the Federal Crop Insurance
Program. In the wake of widespread crop damage caused by hurricanes in 2005, insurance
providers did not meet their contractual obligations throughout the insurance process, which led
to $16.6 million in erroneous payments. Even though providers did not fulfill obligations at each
stage, RMA’s oversight was not adequate to detect or prevent these missteps. For instance,
RMA did not detect that providers allowed their agents to determine both eligibility and
coverage without verifying the underwriting information submitted by the agents—a clear
conflict of interest. Strengthened internal controls can help agencies to safeguard assets and
better achieve their purposes.

The Natural Resources Conservation Service (NRCS) is another agency where we have
identified systemic control issues. Recent audits have found significant control deficiencies in
NRCS programs like the Wetlands Reserve Program and the Conservation Security Program.
Our USDA Management Challenges report states that, “In each, we found a significant number
of instances where NRCS State and local staff either did not follow established procedures or
relied on other parties—including producers and landowners—to ensure compliance. This
resulted in improper payments and unrealized program objectives.” We performed an audit
evaluating 75 Conservation Security Program contracts, and found that NRCS awarded more
than half (38) of those contracts to participants who did not qualify for the program or some
portion of the conservation payments. For example, some participants enrolled land they did not




                                                          REPORT NUMBER 50099-0001-10          3
control, and some claimed that they had a history of land stewardship when they did not.5 NRCS
is expected to pay $4.3 million on these questioned contracts throughout the contract period.

As part of our ongoing work in this area, OIG plans to evaluate NRCS’ oversight and
compliance activities to determine if they are adequate to manage and achieve intended program
results. As we continue with our work regarding RMA and NRCS, we are also reviewing other
agencies’ programs, including:

·   Biomass Crop Assistance Program—Collection, Harvest, Storage, and Transportation
    Matching Payments Program. Our review will evaluate the adequacy of the management
    controls the Farm Service Agency (FSA) has established to ensure that the program is timely
    and effectively implemented and administered, and that the proper amounts of financial
    assistance are provided for eligible purposes.

Cost Savings: USDA delivers approximately $189 billion in public services annually through
more than 300 programs. In fiscal year (FY) 2010, USDA reported that 16 of its programs were
vulnerable to significant improper payments (“high-risk” programs) and estimated $5 billion in
improper payments for that year—a 5.4 percent error rate. As we reported in our USDA
Management Challenges, “This represents a significant reduction from FY 2009’s 5.92 percent
error rate, but still leaves the Department with an opportunity to realize considerable cost
savings.” Agencies should ensure that their programs prevent improper payments and recover
them if warranted. For instance, we audited the Foreign Agricultural Service’s (FAS) controls
for monitoring private voluntary organizations.6 We found that FAS lacked procedures for
ensuring organizations comply with financial requirements, and pursuing funds lost due to
mismanagement, among other issues. As a result, FAS did not hold an organization accountable
for violating its grant agreements, leading to the loss of grant funds that potentially total
$2.2 million.

Due to the substantial funding levels for SNAP, reducing improper SNAP payments and
trafficking can yield significant cost savings. Our audits have identified several security issues
with FNS’ Electronic Benefit Transfer (EBT) System, which are detailed in this report. OIG
investigations have also garnered substantial restitutions of SNAP funds, including $1.1 million
from a California restaurant owner who depleted multiple EBT cards one cent at a time. In
another case, a repeat SNAP trafficking offender was sentenced to 57 months of incarceration,
3 years of probation, and restitution of $1.7 million, as well as deportation.

Our ongoing work in this area includes:

·   SNAP Data Analysis. Our review will analyze SNAP databases for anomalies and signs of
    fraud, waste, and abuse, and determine whether funds are used properly. We will also
    compare SNAP participants to the Social Security Administration’s Death Master File,



5
 Natural Resources Conservation Service: Conservation Security Program (10601-0004-KC, June 2009).
6
 Foreign Agricultural Service: Private Voluntary Organization Grant Fund Accountability (07016-0001-At,
March 2006).

4     REPORT NUMBER 50099-0001-10
    evaluate whether the States and FNS are effectively using available data analysis tools, and
    assess the data used to report recipient and retailer fraud.

Redundant Federal Programs and Operations: Both the President and Congress have cited the
need to improve the Government’s effectiveness by eliminating redundancies and consequent
wasteful spending, and our USDA Management Challenges report included this as an emerging
issue. This challenge is particularly pressing for USDA because several of its agencies provide
payments to producers for programs that have complementary and interlocking missions;
likewise, USDA shares overarching responsibility for food safety with several agencies in other
departments. We note that the Government Performance and Results Act (GPRA)
Modernization Act of 2010, which updates the almost two-decades-old GPRA, brings new focus
to program areas where multiple agencies currently have responsibilities. This could help
identify areas to increase Government effectiveness overall, and reduce unnecessary duplication
or fragmentation.

Within USDA, individual agencies must understand the need to work together to create a
cohesive, integrated system of program administration. For instance, in 2007, we reported that
USDA had not integrated its country-specific marketing strategies into a focused, global strategy
capable of responding effectively to international market trends.7 We recommended that the
Department develop a global market strategy to increase U.S. export opportunities and
competitiveness. In 2010, the Department announced such a strategy in answer to the
President’s call for an export initiative.

In the area of renewable energy, we reviewed USDA’s activities at the Department level and
across seven agencies. We found that USDA did not have a renewable energy strategy covering
all agencies and programs within the Department.8 Consequently, some programs did not place
sufficient emphasis on renewable energy, and no agency had analyzed the results of completed
projects to compare expected and actual renewable energy results. We also found that the
Department had not established controls to prevent or detect duplicate funding to loan and grant
recipients.

OIG plans to assess potential overlap or duplication in USDA programs by tailoring parts of
planned audits to address the issue, and by examining various USDA programs for redundancy.
Our ongoing audit work in this area includes:

·   USDA Controls Over Shell Egg Inspection. This audit will assess USDA’s efforts to control
    contaminants such as Salmonella in shell eggs and the Department’s coordination with the
    Department of Health and Human Services’ Food and Drug Administration, which has
    authority over egg-laying production. The audit focuses on USDA’s Agricultural Marketing
    Service (AMS), which is responsible for grading eggs, and FSIS, which holds authority over
    labeling and refrigeration requirements.



7
  Foreign Agricultural Service: Implementation of the Trade Title of the 2002 Farm Bill and the 2002 President’s
Management Agenda (50601-0012-At, March 2007).
8
  Implementation of Renewable Energy Programs in USDA (50601-0013-Ch, August 2008).

                                                                     REPORT NUMBER 50099-0001-10                   5
Finally, we believe that USDA should be mindful of how a reduced staff size could impact its
program implementation. In our USDA Management Challenges report, we identified staffing
and workforce succession planning—particularly for FSIS, FSA, and the Forest Service—as an
emerging issue. As of April 2011, over half of USDA’s senior executive service staff were
eligible to retire (155 of 304), while a third of the higher level general schedule grade staff were
eligible. In February 2012, the Secretary of Agriculture testified that over the last 15 months,
nearly 7,000 USDA employees have elected to take advantage of regular and early retirement
opportunities.9 In addition to personnel levels, IT systems can also impact program
implementation. Developing modern IT systems, accompanied by adequate controls, will help
USDA’s agencies and staff offices maximize their available personnel resources to effectively
implement any new mandates from Congress.

As agencies face fiscal challenges, finding ways to streamline programs while continuing to
provide quality service is crucial for future success. We look forward to working with the
Department, and coordinating with GAO, in our efforts to strengthen USDA programs.




9
 Subcommittee on Agriculture, Rural Development, Food and Drug Administration, and Related Agencies,
Committee on Appropriations, U.S. House of Representatives, February 17, 2012.

6     REPORT NUMBER 50099-0001-10
Overview of Titles in the 2008 Farm Bill
The 2008 Farm Bill has governed many federal agriculture, food, and related programs since it
was enacted into law in June 2008. It reauthorized, expanded, and modified many programs,
amended laws, created new programs and initiatives, and repealed some programs. This farm
bill enacted mandatory spending for commodity, crop insurance, nutrition assistance,
conservation, and trade programs. For other programs – including most rural development,
research, and agricultural credit programs – the farm bill primarily authorized discretionary
spending (i.e., spending subject to separate appropriations legislation). In 2011, the
Congressional Budget Office (CBO) estimated that mandatory spending in the 2008 Farm Bill
would cost about $95 billion annually from 2010 through 2012. Many of the bill’s provisions
expire at the end of FY 2012.

The 2008 Farm Bill consists of 15 titles and related provisions covering support for commodity
crops, horticulture and livestock, conservation, nutrition, trade and food aid, agricultural
research, farm credit, rural development, energy, forestry, and other related programs. These
titles are generally administered by the USDA and are summarized below.

Title I: Commodity Programs. Under this title, the Federal Government provides assistance to
farmers producing certain commodities, including wheat, feed grains, cotton, rice, oilseeds, and
peanuts. In general, assistance is provided largely through three mechanisms: (1) direct
payments unrelated to production or prices; (2) counter-cyclical payments for a commodity that
are triggered when prices fall below statutorily set target prices; and (3) marketing assistance
loans and loan deficiency payments; the latter occur when crop prices fall below statutorily set
levels. In addition, the support for the dairy industry is provided by, for example, having the
Government purchase dairy products and make payments to eligible farmers when milk prices
fall below a certain level; and support for sugar growers and processors by maintaining
guaranteed minimum prices through a variety of mechanisms. In 2011, CBO estimated that
mandatory outlays in the Commodity Programs Title would cost about $6 billion annually from
2010 through 2012.

Title II: Conservation. Farm bill conservation programs, generally administered by USDA,
provide technical and financial assistance to farmers who voluntarily adopt conservation
practices to mitigate the degradation of natural resources that can result from agriculture. For
example, some conservation programs aim to prevent soil erosion, conserve and improve wildlife
resources, protect wetlands, or protect water and air quality. Other conservation programs focus
on specific restoration efforts, including those for the Chesapeake Bay and the Great Lakes
Basin. In 2011, CBO estimated that mandatory outlays in the Conservation Title would cost
about $5 billion annually from 2010 through 2012.

Title III: Trade. The Trade Title includes provisions related to international food assistance and
trade. The 2008 Farm Bill reauthorizes Pub. L. 83-480, the Food for Peace Act, which includes
provisions for the largest U.S. international food aid program, administered by the U.S. Agency




                                                            REPORT NUMBER 50099-0001-10            7
for International Development (USAID).10 In addition, the 2008 Farm Bill authorizes smaller
food assistance programs, including Food for Progress, the Bill Emerson Humanitarian Trust,
and the McGovern-Dole International School Feeding and Child Nutrition Program, all
administered by USDA. The farm bill also adds a small pilot program that supports local and
regional procurement of food assistance.

This title includes trade provisions such as export credit guarantees and export market
development. Export credit guarantees ensure payments to U.S. financial institutions when
foreign buyers finance their purchases of U.S. agricultural exports. Export market development
programs promote the sale of U.S. agricultural exports overseas by supporting activities such as
market research and consumer promotions. In 2011, CBO estimated that mandatory outlays in
the Trade Title would cost about $287 million annually from 2010 through 2012.

Title IV: Nutrition. The Nutrition Title, which accounts for about two-thirds of all spending
mandated in the 2008 Farm Bill, includes programs to support domestic food and nutrition
assistance. The largest of these programs is SNAP, which aims to help low-income individuals
and families obtain a better diet by supplementing their income with benefits to purchase food.
School meal programs are authorized in other laws; the farm bill includes some minor provisions
related to the programs, such as a pilot project to purchase whole grains for use in school meals.
In 2011, CBO estimated that major provisions in the Nutrition Title would cost about $76 billion
annually in mandatory outlays from 2010 through 2012.

Title V: Credit. Under separate legislation, the Federal Government provides credit assistance
for farmers through two lenders. FSA makes loans to farmers who cannot otherwise qualify for
credit and guarantees repayment of loans made by other lenders. In addition, a Government-
sponsored lender, the Farm Credit System, makes loans to creditworthy farmers. The 2008 Farm
Bill made minor changes to the statutes for these two lenders. In 2011, CBO estimated that the
combination of mandatory outlays and income from fees paid by banks would result in about
$245 million in net receipts to the Government annually from 2010 through 2012.

Title VI: Rural Development. This title includes programs that support rural utilities and
economic development through loans, grants, and technical and financial assistance for rural
businesses and infrastructure development. It also sets priorities for expanding broadband
service to underserved areas. In 2011, CBO estimated that mandatory outlays in the Rural
Development Title would cost about $30 million annually from 2010 through 2012.

Title VII: Research and Related Matters. Under this title, the Federal Government provides
support for USDA’s research and development programs, including research on food safety and
nutrition, plant and animal health and production, agricultural economics, renewable energy,
organic agriculture, and bioterrorism. Through these programs, USDA conducts research
directly and provides grants for research conducted in universities and other institutions. In



10
  The 2008 Farm Bill changed the name of the authorizing legislation from the Agricultural Trade Development and
Assistance Act of 1954, commonly known as Pub. L. 83-480, to the Food for Peace Act, and deleted export market
development as one of the objectives of the programs.

8     REPORT NUMBER 50099-0001-10
2011, CBO estimated that mandatory outlays in the Research and Related Matters Title would
cost about $69 million annually from 2010 through 2012.

Title VIII: Forestry. Many federal forestry programs are separately authorized and do not
require reauthorization in the farm bill. Thus, we have not included most of our Forest Service
work in this report. However, some programs and provisions related to forestry—especially on
private lands—are authorized or amended in the farm bill. For example, the 2008 Farm Bill
directed the Secretary of Agriculture to create a new community forest and open space
conservation program to acquire forests threatened with conversion for non-forest uses; added
national priorities for funding private forest conservation; required States to develop and submit
statewide assessments of forest resources to receive federal funding for the conservation of
private forests; and amended existing law to restrict imports of illegally logged wood. In 2011,
CBO estimated that mandatory outlays in the Forestry Title would cost about $10 million
annually from 2010 through 2012.

Title IX: Energy. Under this title, the Federal Government provides support for programs that
promote biofuels, biobased products, and ethanol production. These programs fund activities
such as construction of biofuel refineries, federal agency procurement of biobased products (e.g.,
corn-based plastics, soybean-based lubricants, and citrus-based cleaners), energy efficiency
improvements, rural energy self sufficiency, studies on biofuels’ infrastructure needs, and efforts
to encourage the use of woody biomass for energy production. Woody biomass – which includes
material from trees and woody plants – can be used to generate energy for heating or cooling
buildings, among other things. In 2011, CBO estimated that mandatory outlays in the Energy
Title would cost about $358 million annually from 2010 through 2012.

Title X: Horticulture and Organic Agriculture. This title includes provisions that support State
efforts to enhance competitiveness of specialty crops (i.e., fruits, vegetables, tree nuts, dried
fruits, and nursery crops including floriculture), fund farmers’ markets, help farmers with
organic certification costs, and call for organic data collection, among other things. In 2011,
CBO estimated that mandatory outlays in the Horticulture and Organic Agriculture Title would
cost about $102 million annually from 2010 through 2012.

Title XI: Livestock. Farm bills traditionally have not included price and income support
programs for most animal agriculture (except dairy) like they have for major crops. The 2008
Farm Bill, however, introduced a new livestock title that modifies laws and requirements related
to livestock, meat, poultry, and catfish. For example, it calls for enhancing electronic reporting
of data on livestock markets, addresses concerns about livestock disease prevention and food
safety, extends mandatory safety inspections to catfish, and allows some interstate sales of
state-inspected meat and poultry. According to CBO, there are no mandatory outlays in the
Livestock Title from 2010 through 2012.

Title XII: Crop Insurance and Disaster Assistance Programs. The Federal Crop Insurance
Program does not require reauthorization in the farm bill, but the 2008 Farm Bill modified the
program, which subsidizes the cost of farmers’ premiums and pays an allowance to insurance
companies to cover the administrative and operating expenses of selling and servicing crop
insurance policies, among other things. The farm bill also provided support for disaster


                                                            REPORT NUMBER 50099-0001-10             9
assistance programs in this title and in Title XV, the Trade and Tax Provisions Title. In 2011,
CBO estimated that mandatory outlays in the Crop Insurance and Disaster Assistance Programs
Title would cost about $7 billion annually from 2010 through 2012.

Title XIII: Commodity Futures. This title reauthorizes funding for the Commodity Futures
Trading Commission, an independent regulatory agency, and further amends the Commodity
Exchange Act. According to CBO, there are no mandatory outlays in the Commodity Futures
Title.

Title XIV: Miscellaneous. The Miscellaneous Title includes provisions affecting research, rural
development, biosecurity, animal welfare, and socially disadvantaged farmers and ranchers,
among other issues. In 2011, CBO estimated that mandatory outlays in the Miscellaneous Title
would cost about $53 million annually from 2010 through 2012.

Title XV: Trade and Tax Provisions. This title creates a new disaster assistance program—
Supplemental Revenue Assistance Payments (SURE)—to compensate farmers for certain
disaster-related losses, including those not covered by crop insurance. It also introduces
numerous revenue and tax provisions affecting customs fees, conservation, and commodity
program payments. According to CBO, the only mandatory outlays in the Trade and Tax
Provisions Title are those for the SURE program, which CBO included in its estimates for the
Crop Insurance and Disaster Assistance Program Titles.




10     REPORT NUMBER 50099-0001-10
Commodity Programs

Commodity programs help to protect farmers against risks such as declines in crop prices and
support farm income. FSA administers the programs under the Commodity Title.

The Federal Government spent over $6 billion on farm program payments to farmers in 2010.
These payments go to both individual farmers, as well as to entities such as corporations,
partnerships, and estates. Some of these payments are tied to revenue or market changes—for
example, payments may compensate farmers when crop prices go below a certain threshold—
while others, called direct payments, are fixed annual payments based on farms’ historic
production. For each type of payment, statutory provisions define which farmers are eligible to
receive payments and may limit the amount each farmer or entity can receive. For example,
farmers whose incomes exceed statutorily defined caps are not eligible to receive payments.
Nearly all of the farm policy proposals released in 2011 either reduce or eliminate direct
payments.

Audit Work:

FSA Needs Mandatory Price Reporting to Ensure Validity of Peanut Program Payments
(Applicable principles: relevance; effectiveness; oversight)

   ·   Since there is no public commodities market for in-shell peanuts, FSA relies on National
       Agricultural Statistics Service’s (NASS) weekly published average peanut prices to
       calculate financial assistance payments to peanut producers, which totaled over $1 billion
       from 2002 to 2007. Peanut buyers’ participation in the NASS survey used to determine
       these prices is voluntary and the results are confidential. Given these circumstances, we
       undertook this audit to determine if NASS’ peanut price data that FSA uses to provide
       financial assistance to peanut producers are based on reliable market data.

   ·   We found that NASS’ peanut prices are unreliable because they may not be complete,
       cannot be verified, and do not reflect prevailing weekly market values. The level of FSA
       assistance paid to producers can be affected significantly by even small changes in prices.

   ·   FSA generally agreed to seek statutory authority to establish mandatory price reporting of
       peanut purchases by buyers and to verify buyers’ reported data to NASS (Farm Service
       Agency’s Reliance on the National Agricultural Statistics Service’s Published Peanut
       Prices, 50601-0014-KC).

FSA Needs to Strengthen Controls Over Farm-Stored Loan Collateral
(Applicable principles: relevance; oversight)

   ·   Marketing assistance loans help farmers to store their crops at harvest when prices are
       low and sell them later at more advantageous prices. In response to the effects of the
       2005 Hurricanes Katrina and Rita on grain storage, USDA approved onground farm
       storage for commodities offered as loan collateral for calendar years 2005 and 2006. We


                                                         REPORT NUMBER 50099-0001-10           11
         initiated this audit to determine if FSA had adequate controls over marketing assistance
         loans with farm-stored collateral.

     ·   We found that FSA’s controls were generally adequate, but the agency could improve
         how it secures farm-stored loan collateral. For instance, due to ambiguities in FSA’s
         procedures and regulations, FSA overvalued some low-quality commodities that
         were provided as collateral for 16 loans by $1.6 million. Moreover, even when
         regulations were clear, county offices did not always comply with them. Finally, one
         State and county office made a number of errors (resulting in questioned loans of more
         than $600,000) when administering marketing assistance loans to a cooperative
         marketing association.

     ·   FSA agreed to (1) clarify its procedures regarding the collateral value of low-quality,
         high-moisture commodities and the use of commodity loan seals; (2) take action to
         determine and recover the potentially overstated value of such collateral, as deemed
         appropriate; (3) strengthen its systems for performing spot checks of loan collateral and
         for completing and reviewing marketing assistance loan documents; and (4) provide
         training to the State and county office that committed errors administering the loans
         (Farm Service Agency: Nonrecourse Marketing Assistance Farm-Stored Loans,
         03601-0047-Te).

FSA Needs to Ensure Equal Treatment of Producers in the Milk Income Loss Contract
Program (MILC)
(Applicable principles: effectiveness; oversight)

     ·   When domestic milk prices fall below a specified level, MILC pays producers on eligible
         dairy operations, based on their quantity of production. While there is no payment limit,
         there is a yearly production cap of 2.4 million pounds of milk per dairy operation for
         payments. A producer may operate either a single dairy operation or multiple operations,
         each with a separate production cap. An FSA study of a predecessor program to MILC
         showed differences in the definitions of a “dairy operation” used by various State offices
         to determine whether producers operated single or multiple dairy operations. FSA
         attempted to refine the definition of a “dairy operation;” however, the Office of the
         General Counsel (OGC) advised FSA that the MILC legislation prohibited FSA from
         applying different standards than those used under the prior program. OIG evaluated
         whether program payments to producers were properly determined and based on reliable
         evidence, and whether State and county offices were correctly and consistently using the
         definition of a “dairy operation” in applying the production cap.

     ·   Our review of MILC contracts in four States disclosed that producers with similar
         operations located in different States received disparate program payments, e.g., a MILC
         producer in Pennsylvania received $54,569 as a single dairy operation, but the same
         producer in California would have received $110,679 as two dairy operations. For three
         producers in two States, payment disparities totaled almost $250,000.




12       REPORT NUMBER 50099-0001-10
   ·   FSA officials agreed that, if the program continues, language should be submitted for
       inclusion in the proposed legislation that would ensure a consistent, Nationwide
       definition of a “dairy operation” to prevent gross inequities. Despite these
       recommendations, the 2008 Farm Bill required that the same determinations for a dairy
       operation be used that were used in the 2002 Farm Bill (Farm Service Agency: Milk
       Income Loss Contract (MILC) Program, 03601-0010-Ch).

Investigative Work:

Missouri Man Sentenced to Prison for Selling Mortgaged Grain

A Missouri man made false statements to FSA regarding certified farm-stored loans and, as a
result, received at least $735,494 in loans to which he was not entitled. Even though the man
repaid the loans, the U. S. Attorney’s office believed that he would have placed USDA at
significant risk if he had defaulted on the loans. In July 2010, the man was indicted in the
Eastern District of Missouri on two counts of making false certifications. He later pled guilty
and was sentenced to serve 6 months in Federal prison and fined $4,200.

Iowa Man Sentenced Following Guilty Plea for Conversion of Mortgaged Property

An Elkader, Iowa, producer admitted that he sold approximately 19,315 bushels of Commodity
Credit Corporation-mortgaged corn and failed to notify FSA or to provide any of the sales
proceeds to FSA. The producer split the sales proceeds with his son. In November 2008, the
producer was indicted in Federal District Court for the Northern District of Iowa for conversion
of the mortgaged grain and subsequently pled guilty. In June 2009, he was sentenced to serve
5 months in Federal prison, followed by 3 years of probation, and was ordered to pay $38,517 in
restitution to FSA.




                                                          REPORT NUMBER 50099-0001-10             13
Conservation

A strong U.S. agricultural sector benefits the economy and the health of the Nation, but if not
properly managed, agricultural production can lead to the degradation of natural resources. For
example, every year, more than a billion tons of soil erode from the Nation’s cropland, and
thousands of other acres, including wetlands, are converted into new cropland. Because farmers
and ranchers own and manage about 940 million acres, or about half of the continental United
States’ land area, they are among the most important stewards of our soil, water, and wildlife
habitat.

Originally established by Congress over 75 years ago as the Soil Conservation Service, the
Natural Resources Conservation Service’s (NRCS) mission has expanded to cover all natural
resources. NRCS ensures private lands are conserved, restored, and made resilient to
environmental challenges like climate change. Generally, NRCS’ programs provide financial
and technical assistance supported by science-based technology and tools to help farmers and
ranchers conserve, maintain, and improve the Nation’s natural resources.

NRCS provides services directly to the landowner or land manager in cooperation with local
conservation districts. The largest single NRCS program is the Environmental Quality
Incentives Program (EQIP). EQIP advances the voluntary application of conservation practices
to promote agricultural production, forest management, and environmental quality as compatible
uses. The fastest growing NRCS program is the Conservation Stewardship Program. With the
Conservation Stewardship Program, NRCS shifted how it provides conservation program
payments. Conservation Stewardship Program participants receive an annual land use payment
for the operation-level environmental benefits they produce. Under the program, participants are
paid for conservation performance: the higher the operational performance, the higher their
payment.

The Farm and Ranch Lands Protection Program (FRPP) is a voluntary program that helps
farmers and ranchers reserve their land for agricultural uses. Through FRPP, NRCS provides
Federal funds to organizations, known as cooperating entities, to purchase conservation
easements in order to prevent land from being developed for non-agricultural purposes such as
housing. A cooperating entity may be a State, tribal, or local governmental entity or
non-governmental organization.

Audit Work:

NRCS Needs More Effective Oversight and Monitoring for FRPP
(Applicable principles: targeting; effectiveness; oversight)

     ·   NRCS provides funds based on conservation easement appraisals of the fair market value
         (FMV) of the land. The Federal share is limited to 50 percent of the appraised FMV,
         with the cooperating entity required to contribute 50 percent. The cooperating entity can
         include landowner donations up to 25 percent of the easement’s FMV as part of the
         cooperating entity’s matching contribution.


14       REPORT NUMBER 50099-0001-10
    From FY 2003 through FY 2011, NRCS allocated nearly $1 billion for FRPP. During
    this time, we initiated two reviews based on referrals from NRCS and from OGC. Based
    on our initial results, we then performed an additional, expanded review. For these three
    reviews, we assessed whether the non-governmental organizations complied with NRCS
    requirements, whether appraisals were completed in conformance with appraisal
    standards, and whether NRCS controls over FRPP were adequate.

·   In our first review, we found that a non-governmental organization had not contributed its
    share of matching funds, but instead obtained those funds from the landowners as a
    contingency to participating in the program. We also found that the appraisals to
    determine the NRCS matching contributions were unreliable, were not performed in
    accordance with appraisal standards and NRCS requirements, and may have potentially
    overstated easement values (Natural Resources Conservation Service: Farm and Ranch
    Lands Protection Program in Alabama, 10099-0005-SF).

    In our expanded followup review, we found that a non-governmental organization was
    using landowner funds to pay for its share of the purchase price for four FRPP easements,
    in violation of program regulations. We also found that non-governmental organizations
    were soliciting donations from landowners for costs associated with procuring and
    maintaining easements; however, FRPP regulations do not prohibit this practice (Natural
    Resources Conservation Service: Farm and Ranch Lands Protection Program: Review of
    Non-Governmental Organizations, 10099-0006-SF).

    In the third review, we found that the NRCS State office had accepted conservation
    easement appraisals even though they did not meet standards, or were unsupported. We
    questioned more than $1.5 million that NRCS paid for these easements. We also found
    that though the appraisals should not be more than 12 months old at the time the
    conservation easements are closed, 59 percent of the easements had appraisals that
    exceeded the time limits and may differ significantly from current fair market values.
    Since more recent appraisals may have reflected decreased values, we questioned
    $6.1 million of the $11.5 million that NRCS paid for easements with outdated appraisals
    (Controls Over Farm and Ranch Lands Protection Program in Michigan,
    10099-0003-Ch).

·   In these reviews, we concluded that NRCS had not implemented effective management
    controls to monitor and provide oversight to non-governmental organizations and ensure
    that NRCS field offices complied with program rules and appraisal standards. NRCS had
    either not performed a review of the cited field offices or its reviews were inadequate. As
    a result, we found the landowners were not treated equitably in different areas, and that
    targeted benefits intended for landowners were benefitting non-governmental
    organizations. We recommended that NRCS implement additional program policies and
    procedures as well as more effective oversight and monitoring procedures.




                                                      REPORT NUMBER 50099-0001-10          15
NRCS Needs Better Management Controls for the Conservation Security Program
(Applicable principles: relevance; distinctiveness; targeting)

     ·   Due to limited funding, NRCS restricted Conservation Security Program sign-ups to
         selected priority watersheds. While the 2008 Farm Bill prohibited new contracts under
         the program after September 30, 2008, program payments will continue for the life of
         existing contracts. Our audit evaluated the adequacy of management controls established
         by NRCS to ensure the integrity of the Conservation Security Program.

     ·   We found systemic and pervasive management control weaknesses over participant and
         land eligibility determinations. This situation jeopardized NRCS’ stated goal of using its
         programs to reward those meeting high standards of conservation and environmental
         management on their operations. Of the contracts we reviewed, NRCS awarded more
         than half (38 of 75) to participants who did not qualify for the program or some portion
         of the conservation payments received. At the time of our review, NRCS had paid
         $1.4 million for the 38 questionable contracts and was expected to pay nearly
         $4.3 million more throughout the contract period. Further, NRCS did not implement a
         control to prevent producers from receiving payments from multiple contracts—we
         identified 12 producers with multiple contracts who received improper payments totaling
         over $400,000.

     ·   We questioned the relevance of the program’s purpose since we found more than half of
         the participants in our sample did not qualify for the program or some portion of the
         conservation payments received. The 2008 Farm Bill replaced the Conservation Security
         Program with the new Conservation Stewardship Program for FYs 2009 through 2017.
         NRCS indicated that it will take the issues identified in this report as lessons learned and
         incorporate additional management controls in the Conservation Stewardship Program
         Natural Resources Conservation Service: Conservation Security Program,
         10601-0004-KC).

Investigative Work:

Texas Irrigation Companies Sentenced on Scheme to Defraud NRCS’ EQIP

In March 2011, the U.S. District Court, Northern District of Texas, sentenced three west Texas
irrigation companies to 5 years’ probation and ordered them each to pay a $400 fine and $50,000
in restitution, after they pled guilty to submitting inflated invoices to obtain excess cost-share
reimbursements through NRCS’ EQIP. In addition, one corporate officer agreed to enter into the
Pre-trial Diversion Program administered by the U.S. Attorney’s Office, Northern District of
Texas; he subsequently paid a $15,000 fine and was debarred from all NRCS programs for
60 months.




16       REPORT NUMBER 50099-0001-10
Wisconsin Landowner Charged With Violating Terms of Conservation Easement

A Wisconsin landowner, who had been paid approximately $230,000 by NRCS for a permanent
conservation easement on 487 acres of land, pled guilty in Federal court to deliberately violating
the terms of the easement agreement by unlawfully cutting trees. Our investigation determined
that the landowner entered into a contract with a timber company and received payment for hard
wood removal, without NRCS’ consultation or approval, which was in direct violation of the
easement. In October 2009, the landowner was sentenced in United States District Court,
Eastern District of Wisconsin, to four months of probation, and ordered to pay $8,000 restitution
to NRCS.




                                                          REPORT NUMBER 50099-0001-10          17
Trade

Given the importance of U.S. agriculture to the economy—in 2011, the Nation’s farms and
ranches produced $409 billion in goods11—USDA has a longstanding and deeply rooted interest
in promoting the export of U.S. commodities worldwide. Over the last several years, the
monetary total of U.S. agricultural exports has risen significantly because of adverse weather
conditions in major foreign agricultural areas, the U.S. dollar’s declining value, and increased
demand in countries such as India and China. In FY 2011, U.S. agricultural exports totaled
$137 billion—an increase of 27 percent from the preceding FY’s $109 billion.

In 2010, the United Nations’ Food and Agriculture Organization estimated that a total of
925 million people worldwide were undernourished. The food and fuel crisis of 2006-2008 and
the current global economic downturn exacerbated food insecurity in many developing countries
and sparked food protests and riots in dozens of them. The United States provided nearly
$2.3 billion to provide a total of 2.5 million metric tons of food aid commodities to food-insecure
countries in FY 2010. This amount accounted for more than half of all global food aid supplies,
making the United States the single largest donor of food aid.

In these times, developing a global market strategy for U.S. agricultural goods is vital,
particularly because the Nation’s production is increasingly devoted to biotechnology-derived or
genetically engineered (GE) crops. In 2011, GE-corn constituted 88 percent of all corn planted
in the United States; GE-cotton constituted 90 percent of planted cotton; and GE-soybeans
constituted 94 percent of soybeans planted.

The U.S. delivers international food assistance through multiple programs, some of which were
authorized or amended in farm bills. For example, the 2008 Farm Bill extended the authority for
the Food for Progress Program, which provides for the donation of U.S. agricultural commodities
to developing countries committed to introducing and expanding free enterprise in the
agricultural sector. Donated commodities are monetized (sold on the local market), and the
proceeds are then used to support agricultural development activities.

The Foreign Agricultural Service (FAS) is the agency charged with coordinating USDA
international activities. The 2002 Farm Bill and the 2002 President’s Management Agenda
established a number of new goals and requirements for FAS, and that farm bill’s Trade Title
included 13 provisions which affected FAS programs. These provisions affected export credit
guarantees, market development, export enhancement, food aid development, technical barriers
to trade, and trade-related programs in other titles of the bill.




11
  Economic Research Service, “Value-added to the U.S. economy by the agricultural sector via the production of
goods and services 2008-2012F,” February 21, 2012. http://ers.usda.gov/Briefing/FarmIncome/Data/va_t1.pdf

18      REPORT NUMBER 50099-0001-10
Audit Work:

USDA Needs an Overall Strategy to Enhance Trade of GE Agricultural Commodities
(Applicable principles: distinctiveness; effectiveness)

   ·   While U.S. producers have embraced the agricultural potential of new GE plant varieties,
       they have encountered numerous nontariff trade barriers preventing them from exporting
       commodities derived from these plants. The 2002 Farm Bill established five provisions
       concerning biotechnology and international trade. OIG assessed USDA’s role in
       promoting the export of GE agricultural commodities.

   ·   We found that, faced with this long-term challenge to the health of U.S. exports, USDA
       has not developed a coordinated, comprehensive strategy to address trade challenges
       specific to GE agricultural commodities. Such a strategy would help stabilize U.S.
       trade—both softening market downturns and increasing exports in favorable markets. In
       2009, we reported that FAS had not made measurable progress in fulfilling the various
       biotechnology goals of the 2002 Farm Bill. We also could not determine what progress
       USDA had made towards meeting its strategic goals for biotechnology trade-related
       activities.

   ·   We recommended that USDA develop and implement a coordinated, comprehensive
       strategy for promoting GE exports, as well as performance measures to evaluate the
       effectiveness of biotechnology trade-related activities. Finally, we recommended that the
       Department should formalize and better document existing processes to effectively
       coordinate and utilize USDA’s various biotechnology-related activities in developing its
       strategies for resolving or mitigating GE trade barriers (USDA’s Role in the Export of
       Genetically Engineered Agricultural Commodities, 50601-0014-Te).

FAS Needs to Engineer a Global Market Strategy to Improve U.S. Competitiveness in
World Agricultural Export Markets
(Applicable principles: distinctiveness; effectiveness)

   ·   OIG began this audit to evaluate FAS’ efforts to implement the 2002 Farm Bill
       amendments to existing food aid and trade programs, and establish newly authorized
       programs and work with other agencies to address problems that the 2002 President’s
       Management Agenda identified in food aid programs.

   ·   We found that FAS had timely implemented 10 of the 13 provisions affecting
       international trade and improved the operation of its food aid programs. However, FAS
       had not developed a business process to ensure that the global market strategy
       requirements of the farm bill were met. The 2002 Farm Bill required FAS to coordinate
       the Department’s resources and programs with those of other Departments, identify
       opportunities for agricultural exports, and remove trade barriers. We also found that
       FAS lacked a standardized definition to distinguish unprocessed bulk farm commodities
       from high-value and processed products, which caused us to question whether FAS
       could meet certain export targets. Finally, we found that FAS needed to complete

                                                        REPORT NUMBER 50099-0001-10          19
         outcome-oriented performance measures and a food aid information system to create
         meaningful evaluation reports.

     ·   We recommended that FAS develop business processes to integrate agency reviews,
         analyses, and other strategic information; clarify its definitions for bulk, high-value, and
         processed products; and adopt uniform outcome-based performance measures and
         implement its food aid information system. OIG is following up on assessing USDA’s
         actions to build a global market strategy (Foreign Agricultural Service: Implementation
         of the Trade Title of the 2002 Farm Bill and the 2002 President’s Management Agenda,
         50601-0012-At).

FAS Needs to Strengthen its Controls for Monitoring Foreign Food Aid Agreements
(Applicable principles: effectiveness; oversight)

     ·   OIG reviewed FAS’ actions to address management control weaknesses in the Food for
         Progress Program, and also reviewed the food aid agreement activities of eight
         judgmentally selected private voluntary organizations (PVOs) operating food aid grants
         under USDA’s program authorities.

     ·   We reported that FAS’ controls for monitoring PVOs were inadequate, thereby reducing
         the agency’s assurance that the PVOs were effectively meeting the program’s objectives.
         Due to these weaknesses, one PVO was not held accountable for violations of its grant
         agreements, leading to the loss of grant funds, potentially totaling $2.2 million. Also, the
         PVO did not fully accomplish the objectives of its food aid programs in Angola and the
         Ivory Coast. Specifically, FAS lacked procedures for confirming that PVOs were
         recognized by their host governments, verifying that PVOs had complied with financial
         requirements, pursuing grant funds lost due to a PVO’s mismanagement, and reviewing
         PVOs’ past performance before approving additional food aid agreements.

     ·   We recommended that FAS strengthen its management controls over the program,
         including reviewing PVOs’ semiannual reports to FAS, conducting onsite reviews, and
         completing closeout reviews of all food aid agreements. FAS also agreed to confirm that
         PVOs have received the recognition of their host government before agreements are
         finalized, aggressively seek recovery of grant funds lost due to PVO mismanagement,
         and review PVOs’ past performance before approving new food aid agreements (Foreign
         Agricultural Service: Private Voluntary Organization Grant Fund Accountability, 07016-
         0001-At).

Investigative Work:

Florida Exporter Pleads Guilty to Using Falsified USDA Seal and Logo to Export Cocoa
and Chocolate Products to Panama

An OIG investigation disclosed that the owner of a Florida company created false documents,
including letter certificates purportedly issued by AMS, to export six shipments of cocoa powder
to Panama. These forged documents were used to secure entry of the products into Panama and

20       REPORT NUMBER 50099-0001-10
fraudulently attested to the wholesomeness of the products. For example, the Florida exporter
used one such document to secure the entry of approximately 19,000 pounds of chocolate
products, worth about $35,000. In February 2011, the exporter pled guilty to one felony count of
fraudulently and wrongfully affixing the USDA seal and logo to a document. In May 2011, the
exporter was sentenced to 3 years of Federal probation, 6 months of home confinement,
substance abuse treatment, and a fine of $2,000.

California Corporation Pleads Guilty to Charges of False Statements and Aiding and
Abetting

In July 2010, a California company was placed on 3 years of supervised probation, fined
$50,000, and ordered to pay a $400 special assessment as a result of making false statements
about where produce was grown. Our investigation determined that the company provided false
certificates of origin to county inspectors in order to obtain multiple Federal phytosanitary
(i.e., clean health) certificates for red chili peppers, claiming that they were grown in the United
States when in fact they were imported from India and China. In May 2010, a company
representative signed a plea agreement that charged the company with making false statements
and aiding and abetting.

Two Pet Product Companies Agree to Pay $736,000 for Ineligible Receipt of Market Access
Program Funds

In December 2006, two pet product companies agreed to a $736,000 civil settlement with the
U.S. Attorney’s Office, Eastern District of Pennsylvania, after they received approximately
$600,000 in Market Access Program funds for which they were not eligible. FAS distributes the
program’s funds to companies that meet the Small Business Administration’s definitions of
“small business” in order to promote worldwide use and sale of agricultural products by U.S.
small businesses. In this case, the larger company employs more than 2,300 people with yearly
revenues approaching $1 billion, and is ineligible to receive the program funds. Since the two
companies are affiliated, the smaller company is also ineligible to receive program funds.




                                                           REPORT NUMBER 50099-0001-10           21
Nutrition

The Federal Government spends billions of dollars every year on food and nutrition assistance
programs. Millions of Americans turn to these Federal programs when they lack the money to
feed themselves and their families. The recent economic crisis has increased demand for food
and nutrition assistance programs. For example, in the Supplemental Nutrition Assistance
Program (SNAP), the largest food assistance program, participation increased by 33 percent
between 2009 and 2011.

The Food and Nutrition Service (FNS) administers a complex network of nutrition assistance and
food programs in order to distribute benefits to low-income Americans. These programs
emerged piecemeal over the past several decades, through multiple pieces of legislation,
including farm bills, to meet various needs. For example, SNAP was reauthorized in the 2008
Farm Bill, and provided more than $70 billion in benefits to low-income individuals and
households in 2011.12

USDA and States jointly administer SNAP; USDA pays the full cost of benefits and seeks to
ensure that States administer the program in compliance with program rules. States determine
whether households are eligible and issue benefits to participants through electronic debit cards.
Participants use the cards to purchase food in authorized retail stores. However, every year,
SNAP participants exchange hundreds of millions of dollars in benefits for cash instead of food
with authorized retailers across the country, a practice known as trafficking. In a typical
trafficking situation, a retailer gives a SNAP participant a discounted amount of cash—
commonly 50 cents on the dollar—in exchange for SNAP benefits and then pockets the
difference. In addition, benefits are paid incorrectly when, for example, ineligible individuals
receive benefits or eligible individuals are paid more or less than they are entitled to receive. In
2010, these payment errors – including overpayments and underpayments - amounted to more
than $2 billion.

Audit Work:

FNS Needs to Strengthen its Process for Approving Retailers to Accept Benefits
(Applicable principle: oversight)

     ·   FNS carries out the Food Stamp Program, now renamed SNAP, in cooperation with
         private retailers. We assessed whether the agency’s management controls over its
         process for approving retailers to participate in the program were adequate.

     ·   Although FNS had controls in place to ensure proper retailer authorizations, we identified
         two areas where FNS could strengthen its processes for approving retailers for
         participation in FSP, and thus strengthen program integrity. We found that the program


12
  On October 1, 2008, the Food Stamp Program was renamed SNAP. See Food, Conservation, and Energy Act of
2008, Pub. L. 110-246 § 4002, 122 Stat. 1651, 1853. In this report, we discuss information related to both the Food
Stamp Program and SNAP; however, for simplicity, we generally refer to the program as SNAP.

22       REPORT NUMBER 50099-0001-10
       lacked a process to verify retailers’ criminal records and therefore cannot comply with its
       own requirement to deny authorization to any retailer with a criminal conviction (i.e.,
       embezzlement, theft, forgery, etc.) that reflects on the business integrity of the owner.
       Instead, FNS relies on applicant retailers to certify to the accuracy of information they
       provide relative to their criminal record at the point of application. Also, FNS field
       offices are no longer required to hold face-to-face meetings with applicants.

   ·   We recommended that FNS require retailers to undergo a criminal record background
       check before acceptance into FSP. FNS was concerned about the difficulty of obtaining
       these records and the necessity of implementing a regulatory change that may not be cost
       beneficial. FNS agreed to consult with the Department of Justice to ensure that the
       retailer authorization process is sufficient for successful prosecution of retailers who are
       trafficking food stamp benefits. (Food Stamp Program Retailer Authorizations and Store
       Visits, 27601-0015-At).

FNS Needs to Strengthen Oversight of Electronic Benefits Transfer (EBT) System
Access Controls
(Applicable principle: oversight)

   ·   OIG has monitored FNS’ and States’ implementation of the EBT system since its
       inception. Based on our earlier work, FNS agreed to strengthen procedures for reviewing
       and controlling access to State EBT systems and directed States to conduct semiannual
       reviews of employee access. Since January 2001, our audits have identified system
       access deficiencies in seven States. We reviewed whether actions taken by FNS on
       prior nationwide EBT recommendations were adequate, whether FNS-approved waivers
       were reasonable and did not adversely affect EBT operations, and if EBT-related
       oversight was sufficient.

   ·   In 2006, we concluded that while FNS’ oversight of EBT operations was generally
       adequate, State agencies still had inadequate control over the EBT system, which could
       allow unauthorized access to go undetected and unaddressed. Even after an OIG
       recommendation to resolve this issue, we found system access deficiencies in four States.
       We also identified EBT trafficking through the illegal and unauthorized use of Point of
       Sale (POS) equipment. Unscrupulous retailers circumvented the EBT security controls
       by fraudulently obtaining new equipment or illegally moving existing machines to
       unauthorized locations. This occurred because States were not required to consider
       equipment functionality or technological specifications that could prevent the illegal
       removal and unauthorized use of existing EBT POS equipment (Food and Nutrition
       Service National Office Oversight of Electronic Benefits Transfer Operations,
       27099-0066-Hy).

   ·   In response to our audit, FNS agreed to strengthen controls over EBT system access and
       EBT equipment safeguards. In 2009, we conducted a follow-up audit to determine if
       FNS officials took corrective actions in response to our prior recommendation, and found
       that FNS implemented this recommendation (Summary of Nationwide Electronic Benefits
       Transfer Operations, 27099-0071-Hy).

                                                          REPORT NUMBER 50099-0001-10           23
FNS Needs to Improve SNAP’s Anti-Fraud Locator EBT Retailer Transactions (ALERT)
Watch List System
(Applicable principle: oversight)

     ·   FNS’ ALERT system analyzes data from food stamp transactions to detect patterns that
         indicate fraud. An ALERT subsystem, which is called the Watch List, targets specific
         stores for review. Our overall objective was to evaluate the Watch List as a tool for
         identifying fraud.

     ·   We found that necessary information was not available in ALERT, which prevented FNS
         from assessing the Watch List’s effectiveness and impeded its oversight efforts.
         Specifically, ALERT did not contain information about actions taken against individual
         Watch List stores, or whether Watch List stores were ultimately found to have violated
         program requirements. Additionally, because the Watch List contained numerous “false
         hits” (stores appearing on the Watch List that did not warrant review), FNS spent
         resources reviewing stores that were significantly low-risk.

     ·   FNS agreed to determine whether stores on the Watch List were violating program
         requirements to gauge the extent of false hits. FNS also worked on enhancements to the
         ALERT system in order to reduce the number of false hits (Food and Nutrition Service:
         Food Stamp Program ALERT Watch List, 27099-0032-SF).

Investigative Work:

California Restaurant Owner Sentenced to Serve 37 Months in Prison and Pay $1.1 Million
in Restitution for SNAP Fraud

OIG and Secret Service agents executed four search warrants at a restaurant authorized to accept
SNAP benefits from recipients in exchange for hot meals, as well as at the restaurant owner’s
home. They arrested the owner and seized over $360,000 from multiple accounts. The
investigation disclosed that the owner caused more than $1.3 million in SNAP benefits to be
redeemed using an EBT-POS terminal registered to her restaurant by depleting multiple EBT
cards of their balances one cent at a time. When the owner failed to report to her pre-sentencing
interviews, she was subsequently arrested again and remanded into custody. In February 2011,
in U.S. District Court, Central District of California, she was sentenced to 37 months’
incarceration, followed by 2 years’ supervised release, and was ordered to pay more than
$1 million in restitution.

Deported Criminal Returned to United States and Resumed EBT Fraud

In 1996, following an OIG investigation, a Connecticut store owner was convicted of food stamp
trafficking fraud and, as a result, was deported. He illegally re-entered the United States in 2000
and, with the assistance of an accountant, opened several stores using other individuals’ names.
The “straw owners” of these stores signed their names on FNS documents to obtain authorization
to accept SNAP benefits, but the subject, his wife, and his brother actually operated these stores

24       REPORT NUMBER 50099-0001-10
and used them to perpetrate a significant volume of SNAP EBT fraud. OIG again investigated
and all three were charged with fraud in U.S. District Court, District of Connecticut. The store
owner and his brother pled guilty. The owner was sentenced in June 2011 to 57 months of
incarceration, 3 years of probation, and restitution of $1.7 million, and will again be subject to
deportation. His brother was sentenced in May 2011 to 21 months of incarceration, 12 months’
probation, and restitution to be determined in further court proceedings. Court actions are
pending against the store owner’s wife.

Director of North Carolina Day Care Sponsoring Organization Sentenced to Prison and
$242,405 in Restitution

A joint investigation by OIG and the North Carolina State Bureau of Investigation determined
that the executive director of a day care sponsoring organization in North Carolina submitted
false claims and willfully misapplied Child Adult Care Feeding Program (CACFP) funds. The
organization submitted overstated claims to the North Carolina State Department of Health and
Human Services and received more than $240,000 in CACFP funds to which the organization was
not entitled. In January 2011, the executive director was sentenced in Federal Court, Middle
District of North Carolina, to up to 18 months’ imprisonment and 60 months’ probation, and
ordered to pay $242,405 in restitution.




                                                          REPORT NUMBER 50099-0001-10           25
Credit

FSA issues direct loans to farmers who cannot qualify for regular credit, and guarantees
repayment of loans made by other lenders. FSA usually makes and guarantees about $3.5 billion
of farm loans annually. However, because of the heavier demand for FSA loans during the
financial crisis, the USDA farm loan program has seen significantly higher demand. In FY 2010,
FSA had $6 billion of authority for loans and guarantees. For FY 2012, FSA has $4.8 billion of
authority for loans and guarantees.

FSA makes direct farm ownership and operating loans to family-sized farms unable to obtain
credit elsewhere, and also guarantees timely payment of principal and interest on qualified loans
made by commercial lenders. Permanent authority exists in the Consolidated Farm and Rural
Development Act, but periodic farm bills—such as the 2008 Farm Bill —often make adjustments
to eligibility criteria and the scope of operations.

FSA’s emergency loan program, which offers producers temporary credit, helps producers
recover from production and physical losses resulting from a designated disaster. It offers the
loans at a low interest rate for producers who are unable to obtain credit from a commercial
source. FSA also provides other types of credit such as conservation and youth loans.

Audit Work:

FSA Needs to Strengthen Oversight Over Loan Collateral
(Applicable principle: oversight)

     ·   Through its operating loans, FSA provides temporary financial assistance to farmers and
         ranchers who are unable to secure commercial credit at reasonable rates and terms. Our
         objective was to assess FSA’s control and oversight of loan collateral to ensure that its
         operating loans were adequately secured.

     ·   We found that FSA’s direct operating loans were adequately secured due to its
         requirement to over-collateralize loans (farmers and ranchers must pledge an asset that
         exceeds the value of the loan as collateral for that loan). While this generally protected
         FSA’s interests, we found that 25 percent of the borrowers we visited had removed loan
         collateral without authorization. Additionally, we identified loan servicing issues that
         needed to be corrected in order to protect FSA’s interests, such as FSA county officials
         not inspecting loan collateral or taking required enforcement action.

     ·   As a result of our audit, FSA agreed to strengthen its oversight to ensure collateral was
         not removed without authorization, and if it was, to document the circumstances and take
         appropriate corrective action (FSA Farm Loan Security, 03601-0018-Ch).




26       REPORT NUMBER 50099-0001-10
FSA Needs to Strengthen Internal Controls Over the Emergency Loan Program
(Applicable principles: distinctiveness; oversight)

   ·   In order to help producers recover losses caused by natural or other disasters, FSA’s
       emergency loan program offers producers temporary credit. Due to OIG’s concerns that
       programs within the Federal Government are at risk of providing duplicate benefits to
       disaster victims, we initiated an audit to evaluate FSA’s controls over the emergency loan
       program.

   ·   We found that while FSA’s controls generally prevented duplication of payment, the
       agency did not require its officials to verify the amount of disaster compensation that
       producers reported in documents like insurance claims. Upon reviewing 58 loans, we
       noted that FSA overfunded one by approximately $29,000, when it mistakenly did not
       subtract a crop insurance payment from the total loss amount.

   ·   FSA accepted our recommendation to revise its handbook to require officials to verify
       disaster-related compensation before issuing emergency loans. FSA also agreed to
       recover the $29,029 from the overfunded loan (Farm Service Agency: Controls Over
       Emergency Loans - Reductions for Duplicate Benefits, 03601-0013-SF).

FSA Needs to Strengthen Controls Over Guaranteed Farm Loan Interest Rates
(Applicable principles: relevance; effectiveness; oversight)

   ·   Interest rates on guaranteed loans are negotiated between the lender and the borrower.
       Federal regulations require that lenders’ interest rates for FSA-guaranteed loans not
       exceed the rates they charge average agricultural loan customers. We initiated this audit
       because of concerns raised by farmers and the U.S. Department of Justice over interest
       rates being charged on FSA-guaranteed loans.

   ·   We found FSA did not have effective controls to ensure that interest rates charged by
       lenders met program requirements. Neither FSA personnel nor any of the five lenders we
       reviewed could clearly articulate a compliant methodology. Using lenders’
       self-described rate-setting methodologies, we calculated that, for 28 of the 71 guaranteed
       loans reviewed, lenders charged interest rates up to 2.25 percent above their average rate.
       We estimated the 28 borrowers could have saved approximately $277,000 over the life of
       the loans had the lenders limited the guaranteed loan interest rates on those28 loans to
       the average rate. Also, FSA’s oversight review process did not include procedures to
       evaluate interest rates charged by lenders. FSA officials acknowledged that controls over
       interest rates were not adequate and that additional controls were needed.

   ·   FSA generally agreed to simplify and clarify its interest rate requirements. FSA also
       agreed to issue guidance for both loan-approving officials and lenders to ensure that
       lenders adhered to requirements. FSA also agreed to determine what actions could be
       taken when lenders potentially exceeded allowed interest rates, and to develop an
       automated system to help evaluate and monitor interest rates (Controls Over Guaranteed
       Farm Loan Interest Rates and Interest Assistance, 03601-0017-CH).

                                                         REPORT NUMBER 50099-0001-10             27
Rural Development

The Federal Government has provided assistance to eligible residents of rural America since
the 1930s, when most of these residents worked on farms and rural areas were generally poorer
than urban areas. Such assistance is still available for these residents; however, today’s rural
America is different from the rural America of the 1930s, and the distinctions between rural and
urban life have blurred. For example, universal access to the internet via broadband
technologies—commonly referred to as broadband internet access—is now considered a critical
economic engine and a central component of 21st-century news and information in both rural
and urban areas.

USDA’s Rural Development programs address the diverse and unique needs of rural America
through loans, loan guarantees, and grants for public facilities and services, such as electricity
and water systems. In addition, over 80 economic development programs, which sometimes
target benefits to rural areas, support 9 separate activities such as entrepreneurial efforts,
infrastructure, and telecommunications.

The 2008 Farm Bill extended funding for some rural and economic development activities, such
as water sanitation and wastewater projects. It also broadened eligibility for the farm labor
housing program, clarified eligibility for rural utility loans, and authorized loans and loan
guarantees for improving access to broadband services in rural areas.

Audit Work:

Rural Utilities Service (RUS) Needs to Improve Its Process for Approving Water and
Waste Disposal System Loans and Grants
(Applicable principles: distinctiveness; targeting)

     ·   The RUS Water and Waste Disposal Loan and Grant Program, administered by Rural
         Development, serves needy rural communities, businesses, and residents by providing
         safe drinking water and sanitary disposal systems at user rates affordable to low-income
         residents. We evaluated the controls in place to provide these loans and grants to rural
         communities.

     ·   We found that Rural Development officials in Tennessee did not determine the
         appropriate interest rate and level of grant funding for one city using income levels,
         which may have led them to award an ineligible loan of $800,000 and issue an incorrect
         interest rate on a $1.2 million loan. We also found that Rural Development officials in
         Alabama did not document evidence of the health or sanitary problems necessary to
         justify awarding several applicants a higher percentage of grant funds. As a result, the
         Rural Development State office may have obligated $7.2 million more than was
         allowable.

     ·   We determined that RUS could have enhanced its grant approval procedures by providing
         additional guidance on how to document health and sanitary conditions. Rural
         Development agreed with our recommendations to issue updated guidance regarding the
28       REPORT NUMBER 50099-0001-10
       use of income surveys and the type of documentary evidence for health and sanitary
       problems necessary to justify awarding a higher percentage of grant funds. However, the
       agency did not agree that the Tennessee loan identified in the report was issued at the
       wrong interest rate or that the regulations and procedures were not followed. Nor did the
       agency agree that the Alabama funding decisions were made in error (Rural Utilities
       Service Controls Over Water and Waste Disposal Loans and Grants, 09601-0001-At).

RUS Needs to Improve Its Broadband Grant and Loan Programs
(Applicable principles: relevance; distinctiveness; effectiveness; oversight)

   ·   The Broadband Grant and Loan Programs were created to help rural communities enjoy
       the same quality and range of telecommunications services available to urban and
       suburban communities. The objective of this audit was to determine if RUS administered
       the programs efficiently and if recipients used grants and loans appropriately.

   ·   We found that RUS had not maintained its focus on rural communities most in need of
       Federal assistance. This is largely because its definition of “rural area,” although within
       the statutory guidelines, was too broad to distinguish between suburban and rural
       communities. As a result, RUS issued over $103.4 million in loans to 64 communities
       near large cities. RUS also needed to create a management structure able to make
       necessary judgments for a program of this size and scope. For instance, we found no
       specific written procedures for approving and servicing broadband grants and loans.

   ·   Our past audits have also disclosed that while RUS’ Broadband Programs serve similar
       needs, RUS has kept these programs separate, often causing duplicated efforts. We
       recommended that RUS clarify its definition of an eligible rural area, create a
       management structure and procedures, and recover funds from defaulted loans
       (Rural Utilities Service: Broadband Grant and Loan Programs, 09601-0004-Te).

       In March 2009, we issued a second report to follow-up on RUS’ corrective actions and
       found that many of our recommendations had yet to be implemented. RUS stated that the
       delays occurred because RUS chose to wait for the passage of the 2008 Farm Bill, which
       at the time of our audit had yet to be passed, to ensure that its proposed rule would meet
       the new requirements in the Farm Bill (Rural Utilities Service: Broadband Loan and
       Loan Guarantee Program, 09601-0008-Te). We continue to audit the controls over the
       broadband program. (American Recovery and Reinvestment Act of 2009 – Broadband
       Initiatives Programs – Pre-Approval Controls, 09703-0001-32, and American Recovery
       and Reinvestment Act of 2009 – Broadband Initiatives Program – Post-Award Controls,
       09703-0002-32).




                                                          REPORT NUMBER 50099-0001-10           29
Rural Business-Cooperative Service (RBS) Needs to Improve Oversight of the Business and
Industry (B&I) Guaranteed Loan Program
(Applicable principle: oversight)

     ·   Through the B&I program, RBS provides guaranteed loans to improve, develop, or
         finance businesses and the economic climate in rural communities. At RBS’ request, we
         reviewed five loans from one lender’s B&I guaranteed loan portfolio.

     ·   We found that during the loan making process, the lender misrepresented crucial
         information such as a borrower’s financial condition, which would have made the
         borrower ineligible for the loan. The lender’s misrepresentation rendered two guarantees
         unenforceable, which means that the Government would be unable to recover
         approximately $6.5 million if the borrowers default. The lender also was negligent in
         servicing the loans.

     ·   We continue to audit the B&I program regarding the use of funds provided by the
         American Recovery and Reinvestment Act (Rural Business-Cooperative Service: Review
         of Lender with Business and Industry Guaranteed Loan, 34099-0008-Te).

Investigative Work:

Michigan Mortgage Company Personnel Defraud Rural Development Guaranteed Loan
Program

Between 2001 and 2003, employees of a Michigan mortgage company issued 271 Rural Housing
Service (RHS) guaranteed single family home loans, valued at over $38 million. At least
63 percent of the loans reviewed were based on false borrower income certifications, fraudulent
pay statements, forged application signatures, and altered credit scores. These false documents
were subsequently provided to Rural Development for loan guarantees. When Rural
Development officials identified the fraud, they contacted OIG and requested an investigation.
Between 2003 and August 2008, approximately 40 of these loans defaulted, resulting in Rural
Development paying out over $2.3 million in guarantees.

For their role in this scheme, four mortgage company employees were charged in U.S. District
Court, Eastern District of Michigan. Two mortgage processors were sentenced to 2 years’
supervised release and were ordered to pay restitution of $654,500 and $206,475, respectively.
The branch manager and his brother, who was the assistant branch manager, pled guilty in March
2011 to making false statements on loan applications. In December 2011, the branch manager
was sentenced to 18 months’ incarceration, ordered to pay approximately $1 million restitution
to Rural Development, a $20,000 fine, and 3 years’ supervised release. The assistant branch
manager was sentenced to approximately 12 months’ incarceration, ordered to pay $570,732 in
restitution to Rural Development, and 3 years’ supervised release. In December 2011, a civil
settlement was filed in which the mortgage company agreed to pay $6.2 million to the
Department of Justice and Rural Development.



30       REPORT NUMBER 50099-0001-10
Research and Related Matters

USDA’s Research, Education, and Economics mission area advances scientific knowledge
related to agriculture through research, extension services, and education. Research, Education,
and Economics agencies engage in activities encompassing USDA’s external research funding;
internal agricultural research; economic and social science research; and agricultural statistics.

The 2008 Farm Bill authorized funding for research on Colony Collapse Disorder (CCD), which
is defined as a low number or absence of adult honey bees in a hive, where a live queen is still
present. The 2008 Farm Bill authorized the following for each fiscal year 2008 through 2012:
$10 million for pollinator research and extension grants; $7.25 million to study CCD and other
threats to pollinator health; and $2.75 million for honey bee pest and pathogen surveillance. Bee
pollination is responsible for $15 billion annually in added crop value, particularly for specialty
crops such as nuts, berries, fruits, and vegetables. In 2006, pollinator-dependent crops reportedly
comprised an estimated 23 percent of total U.S. agricultural production.

As biotechnology continues to develop, scientists are genetically engineering new varieties of
animals and insects for a wide range of purposes. Scientists are now capable of specifically
tailoring animals and plants to grow more quickly, to be more nutritious, and to resist diseases.
Some of this research is conducted and funded by USDA agencies such as the Agricultural
Research Service (ARS) and the Animal and Plant Health Inspection Service (APHIS). To
secure genetic engineering research inside USDA laboratories, USDA agencies are responsible
for implementing and managing security and biosafety programs to prevent adverse impacts on
the health and safety of USDA employees, the public, and the environment.

Regulatory oversight for the safe use of biotechnology products is primarily shared by three
Federal agencies: APHIS, the U.S. Environmental Protection Agency, and the U.S. Department
of Health and Human Service’s Food and Drug Administration. APHIS regulates certain GE
organisms that may pose a risk to plant or animal health. In addition, APHIS participates in
programs that use biotechnology to identify and control plant and animal pests.

Audit Work:

USDA Needs to Strengthen Regulations and Controls Over GE Animals and Insects
(Applicable principles: distinctiveness; effectiveness; oversight)

   ·   We reviewed whether current laws and USDA regulations provide sufficient authority to
       control GE animal and insect research, and whether USDA agencies involved in this
       research have sufficient controls in place to ensure that GE animals and insects are not
       inadvertently released, which could cause harm to commerce, the environment, and
       public health.

   ·   We found that while APHIS published regulations for GE plants, it did not issue
       regulations for the import, interstate movement, or field release of GE animals and
       insects. Instead, APHIS regarded GE animals and animal pests as regulated by rules
       promulgated in 1963. We also found that USDA needed to address specific problems at

                                                          REPORT NUMBER 50099-0001-10           31
         several laboratories performing research involving GE animals and insects. For instance,
         the National Institute of Food and Agriculture (NIFA) did not implement a formal
         process for documenting and monitoring incidents such as the unauthorized release of GE
         animals. As a result, NIFA has been slow to react to, and sometimes unaware of,
         incidents such as the entry of potentially transgenic pigs into the food supply.

     ·   APHIS needs to develop regulations that clearly define the agency’s role in regulating the
         introduction of GE animals and insects. While the problems noted at laboratories were
         relatively minor and did not lead to the inadvertent release of any problematic animals or
         insects, we concluded that the agencies involved should act proactively to strengthen
         their controls so that they can reduce the possibility of future problems (Controls over
         Genetically Engineered Animal and Insect Research, 50601-0016-Te).

Department Needs to Strengthen Controls Over Genetically Engineered Organism (GEO)
Release Permits
(Applicable principles: relevance; effectiveness; oversight)

     ·   APHIS determines whether GE crops are safe to grow, approves the release of new GE
         plants into the environment for testing purposes, and, in some cases, issues release
         permits to applicants. In 2005, we determined whether APHIS’ controls provide
         reasonable assurance that movements and releases of GEOs in the environment are in
         accordance with laws, regulations, and Departmental procedures, and whether they are
         effective in minimizing the inadvertent release of GEOs in the environment.

     ·   We found that APHIS needed to strengthen its accountability for field tests of GE crops.
         At various stages of the field test process—from application approvals to field
         inspections—weaknesses in APHIS regulations and controls increased the risk that
         regulated GEOs could inadvertently persist in the environment before they are deemed
         safe to grow without regulation. For example, we found that APHIS lacked basic
         information about the field test sites it had approved and is responsible for monitoring.
         Also, APHIS did not review some applicants’ containment protocols or require permit
         holders to report on the final disposition of GE crops. We also found inspection
         requirements were vague and that the two APHIS units responsible for the inspection
         program lacked coordination.

     ·   To maintain accountability for regulated GE crops, we recommended that APHIS require
         more information before, during, and after field tests, and seek legislative authority to
         require permit applicants to prove their financial responsibility in relation to the level of
         risk associated with unauthorized GEO release. We also recommended that APHIS
         strengthen its monitoring by formalizing its inspection process, updating its regulations,
         and developing a comprehensive information management system. At the time of the
         report release, APHIS agreed with 23 of our 28 proposed corrective actions. Since
         release, we have worked with APHIS on reaching agreement on corrective actions for the
         remaining five recommendations (Animal and Plant Health Inspection Service: Controls
         Over Issuance of Genetically Engineered Organism Release Permits, 50601-0008-Te).


32       REPORT NUMBER 50099-0001-10
USDA Needs to Survey Losses Caused by Colony Collapse Disorder
(Applicable principles: distinctiveness; effectiveness; oversight)

   ·   In response to CCD—a disorder that interferes with honey bee pollination and endangers
       $15 billion annually in added crop value—USDA led a Federal and non-Federal
       collaboration to better understand the disorder and mitigate the damage to bee colonies.
       We evaluated the effectiveness of USDA’s response to the CCD crisis, and USDA’s
       implementation of applicable provisions of the 2008 Farm Bill.

   ·   The interagency CCD Steering Committee developed an action plan and, overall, we
       found that USDA’s implementation of the plan was adequate in three of four
       components. However, USDA did not complete comprehensive surveys of honey bee
       colony production and colony loss due to CCD. As a result, the true extent of CCD in the
       United States has not been adequately assessed, despite USDA's use of significant
       resources for honey bee research and activities to address CCD.

   ·   We recommended that USDA seek adequate funding for the National Agricultural
       Statistics Service (NASS) to conduct comprehensive surveys of honey bee colony
       production and health, provide the Steering Committee with authority to adequately
       conduct such surveys, and include NASS on the Steering Committee. Further, we
       recommended that a USDA official be designated to monitor the implementation of the
       action plan (USDA’s Response to Colony Collapse Disorder, 50099-0084-Hy).

Investigative Work:

Graduate Student Sentenced in Staged Laboratory Break-In

In August 2003, a Federal court sentenced a former graduate student at Michigan State
University to 10 months of incarceration, followed by 3 years of supervised release. The judge
also sentenced him to 120 hours of community service, and ordered him to pay $69,937 in
restitution for his role in falsifying research funded by the USDA. The restitution represents the
salary paid to the individual during the period he worked on USDA-funded research at the
university developing a vaccine against a bacterium which causes pneumonia in swine. During
the investigation, the individual confessed to staging a break-in at the university lab in
September 2002 in an attempt to conceal research findings he had fabricated over the previous
five years. The news media reported that samples of a highly virulent, genetically altered strain
of the bacterium had been stolen during the apparent break-in. Investigations by OIG, the
Federal Bureau of Investigation (FBI), and university police found that no theft had occurred,
and that the bacterium reported to be stolen is no more virulent than naturally occurring bacteria.
The graduate student admitted, first in an interview with agents and later in an FBI-administered
polygraph, that he had never mutated the gene in the bacteria, as he had claimed, thereby
rendering fraudulent all the lab’s research that had been built on the supposed mutation. He also
stated that he did not remove any samples from the lab.




                                                          REPORT NUMBER 50099-0001-10           33
Energy

In recent years, the Federal Government has increasingly encouraged the use of biofuels and
other alternatives to petroleum in response to concerns over U.S. dependence on imported oil,
climate change, and other issues. The U.S. transportation sector depends almost entirely on
petroleum products refined from crude oil—primarily gasoline and diesel fuels—and the Nation
imports a significant portion of petroleum products consumed domestically.

USDA has a long history of supporting the research and development of renewable energy
resources and is deeply involved in and committed to the Nation’s quest for energy security. The
2008 Farm Bill provides over $1 billion of mandatory funding during a 5-year period to support
a comprehensive approach to energy efficiency and renewable energy development in rural
America. The farm bill programs were designed to increase America’s energy security, improve
the environment, and strengthen rural economies through development and production of
renewable energy and the creation of sustainable green jobs.

USDA has many programs to assist farmers, forest landowners, rural businesses, rural residents,
and the Nation to respond to energy-related issues and opportunities. These range from basic
scientific research to the development and commercialization of new technologies. They include
outreach and education, technical assistance programs, financial support for infrastructure, and
the adoption of biobased and energy-saving products by USDA itself. USDA also supports more
efficient farming and sustainable feedstock production and management techniques; geothermal
facilities; solar and wind farms; current and advanced bioenergy production supply chains; and
biochemical and genomics research. In addition, USDA supports modernization of the rural
electric grid to support renewable energy development to move renewable electricity to markets,
as well as the deployment of smart grid technologies.

OIG reviewed USDA’s renewable energy efforts and administration when the program was
being implemented. Our audit is described below. In 2012, we plan to publish our report on the
Biomass Crop Assistance Program’s Collection, Harvest, Storage, and Transportation Matching
Payments Program. Our review evaluates the adequacy of FSA’s management controls to ensure
that the program is timely and effectively implemented and administered, and that the proper
amounts of financial assistance are provided for eligible purposes.

Audit Work:

Implementation of Renewable Energy Programs in USDA
(Applicable principles: relevance; targeting; effectiveness)

·    We reviewed renewable energy activities in USDA at the Department level and across seven
     agencies. Our audit evaluated USDA’s efforts to emphasize renewable energy activities as
     directed by existing legislation and a 2006 Presidential Initiative. We found that USDA did
     not have a renewable energy strategy covering all agencies and programs within the
     Department.



34      REPORT NUMBER 50099-0001-10
·   Consequently, programs that did not receive funds appropriated for renewable energy did
    not place sufficient emphasis on renewable energy activities—including not properly
    analyzing project benefits. For instance, we identified several ARS projects that benefited
    already mature segments of the ethanol industry rather than developing new and
    innovative technologies in the field of renewable energy. We also found that no agency
    within the Department analyzed the results of completed projects to compare expected and
    actual renewable energy results. Finally, the Department was not always addressing
    high-priority areas, did not establish controls to prevent or detect duplicate funding to loan
    and grant recipients, and in FY 2006, under-reported its renewable energy activities by up to
    $97 million.

·   USDA agreed to develop and implement a renewable energy strategy that included program
    goals for agency managers, action plans, and measures to evaluate performance. It also
    agreed to develop controls to check for duplicate funding and revise the renewable energy
    reporting format. (Implementation of Renewable Energy Programs in USDA,
    50601-0013-Ch).

Investigative Work:

Owners of Mississippi Bioenergy Company Sentenced for False Claims

Two owners of a bioenergy company in Mississippi were sentenced in Federal court for
submitting false claims to defraud the Commodity Credit Corporation of almost $2.9 million in
connection with 2004 and 2005 bioenergy program payments. One owner was sentenced in
July 2010 to 60 months of incarceration followed by 60 months of supervised release. The other
owner was sentenced in September 2010 to 26 months of incarceration followed by 36 months of
supervised release. Both were ordered to pay nearly $2.9 million in restitution jointly and
severally.




                                                          REPORT NUMBER 50099-0001-10           35
Horticulture and Organic Agriculture

This title includes provisions that support State efforts to protect and promote agriculture,
enhance competitiveness of specialty crops (fruits, vegetables, tree nuts, dried fruits, and nursery
crops including floriculture), fund farmers’ markets, help farmers with organic certification
costs, and call for organic data collection, among other things.

Congress first included a title dedicated to specialty crops in the 2008 Farm Bill. The
Agricultural Marketing Service (AMS) facilitates agricultural research and the strategic
marketing of agricultural products in domestic and international markets, while ensuring fair
trading practices and promoting a competitive and efficient marketplace. AMS’ five commodity
programs—Dairy, Fruit and Vegetable, Livestock and Seed, Poultry, and Cotton and Tobacco—
provide standardization, grading, and market news services for those commodities. They also
administer research and promotion programs, and purchase commodities for Federal food
programs. In addition to enforcing such Federal laws as the Perishable Agricultural
Commodities Act and the Federal Seed Act, AMS administers programs such as the National
Organic Program. The organic program develops, implements, and administers national
production, handling, and labeling standards for organic agricultural products. It also ensures
that the agents who inspect organic operations meet USDA standards.

Historically, USDA’s authority has extended over a wide range of specialty crops and other
agricultural programs and efforts. For instance, USDA plays a role in regulating agricultural
biotechnology. Such biotechnology includes, for example, transgenic plants and animals that
result from using genetic engineering techniques. Within USDA, authority over the importation
of transgenic plants and animals is divided among two agencies: APHIS and FSIS. While FSIS
regulates the importation of meat, poultry, and egg products, APHIS regulates the importation of
plants and live animals, to include transgenic organisms that may pose a risk to plants and
agricultural animals.

Audit Work:

USDA Needs to Monitor the Importation of Transgenic Organisms Developed Outside the
U.S. Regulatory System
(Applicable principles: distinctiveness; effectiveness)

     ·   The United States has been in the forefront of developing transgenic (i.e., genetically
         engineered) plants and animals. More recently, however, other nations have started to
         plant more acres of transgenic crops and to develop transgenic plants and animals of their
         own. In light of the unknown consequences of unapproved transgenic plants or animals
         entering the U.S. food supply, we audited USDA’s controls over the importation of
         transgenic plants and animals.

     ·   For transgenic plants, USDA’s controls are generally appropriate for the levels of risk
         associated with the biotechnologies adopted by our trading partners. However, USDA
         had no controls in place that would identify undeclared transgenic plants, and needs to
         develop an overall import control policy. For transgenic animals, USDA had not

36       REPORT NUMBER 50099-0001-10
       established an import control policy. Though in the past USDA did not need such
       controls because most transgenic organisms had been developed under the U.S.
       regulatory system, the Department should anticipate import challenges that will arise as
       the technology becomes more widely accessible.

   ·   We concluded that USDA needed to develop a strategy to monitor the importation of
       transgenic plants and animals and strengthen its coordination efforts. The Department
       generally concurred with our recommendations to formalize a control policy, implement
       a strategy for monitoring the development of transgenic plants and animals in foreign
       nations, and develop procedures for interagency consultations to address emerging risks
       that transgenic plants and animals might pose (United States Department of Agriculture:
       Controls over Importation of Transgenic Plants and Animals, 50601-0017-Te).

USDA Needs to Strengthen Oversight of the National Organic Program (NOP)
(Applicable principles: relevance; distinctiveness; oversight)

   ·   AMS administers NOP to ensure that organically produced products meet uniform
       standards and are appropriately labeled. From 1998 to 2008, the organic industry’s sales
       have grown by a rate of 14 to 21 percent annually. We conducted three audits related to
       USDA oversight of the National Organic Program, first to evaluate AMS’ controls over
       the program after regulations were implemented in 2002, then to assess the effectiveness
       of the corrective actions implemented, and most recently to determine whether milk
       marketed as organic meets program standards.

   ·   In 2005, we found that AMS had not established protocols for working with the National
       Organic Standards Board or resolving conflicts with it. AMS also needs to improve
       management controls for administering the program. For example, in FY 2003, the
       eight complaints referred to the program for decision remain unresolved, one of which
       involved a possible prohibited substance being added to an organic product. To address
       these concerns, AMS agreed to implement protocols for working with the board, or
       resolving conflicts, and to develop internal operating procedures (Agricultural Marketing
       Service's National Organic Program, 01001-0002-Hy).

       In our 2010 followup to the 2005 report, we concluded that AMS officials made program
       improvements and implemented corrective actions. However, AMS needed to perform
       oversight of certifying agent and organic operations to ensure that organic products are
       consistently and uniformly meeting standards. Officials needed to further improve
       program administration and strengthen controls to ensure more effective enforcement
       when serious violations are found.

       In 2012, we reviewed certified organic milk operations and found that AMS can take
       steps to better ensure that consumers who choose to pay a premium for organic milk are
       receiving the product they wish to purchase. Specifically, NOP needs to conduct an
       analysis of genetically modified detection methods and protocols, and based on the
       analysis results, determine whether to develop and issue guidance for certifying agents on
       the utilization of genetically modified detection methods to identify potential violations

                                                        REPORT NUMBER 50099-0001-10           37
         of the USDA organic regulations. NOP also needs to provide greater transparency in its
         yearly list of USDA certified organic operations, ensure that the responsibilities of milk
         transporters are adequately addressed in organic system plans, and develop guidance for
         certifying agents on conducting unannounced inspections.

     ·   To address the concerns identified in our followup audit, AMS agreed to strengthen its
         enforcement procedures and to resolve and track complaints in a timely manner,
         implement a plan for achieving compliance, obtain an OGC opinion on residue testing,
         and strengthen oversight of certifying agents and operations (Oversight of the National
         Organic Program, 01601-0003-Hy).

         AMS generally agreed that by implementing our recommendations in the organic milk
         audit, AMS can promote greater confidence that milk labeled as “USDA Organic” meets
         the standards consumers expect (Agricultural Marketing Service: National Organic
         Program – Organic Milk, 01601-0001-Te).

Investigative Work:

Owner Misrepresents Conventional Crops as Organic to Consumers

In February 2010, the managing owner of an organic company in the Northern District of Texas
was sentenced to serve 24 months of imprisonment, followed by 36 months of supervised
release. During inspections conducted in 2006, he provided false statements and documents in
order to conceal sales of 3,242,771 pounds of conventional milo, 132,000 pounds of
conventional garbanzo beans, and 509,660 pounds of conventional pinto beans, which were
represented as organic crops and sold to the company’s customers in 2005 and 2006. As part of
his sentence, he was also ordered to pay $523,692 in restitution and was not allowed to
participate in any USDA programs for 60 months.




38       REPORT NUMBER 50099-0001-10
Livestock

USDA conducts livestock-oriented activities across several of its agencies, including AMS, the
Grain Inspection, Packers and Stockyards Administration, FSA, FSIS, APHIS, RMA, and
NRCS. Federal farm policy covers programs ranging from livestock insurance for eligible
counties to environmental conservation programs. Federal regulations on manure storage and
disposal, animal health and safety, mandatory price reporting, and country of origin labeling
(COOL) have implications for how livestock and meat are produced and marketed.

USDA implements programs that serve as preemptive controls to protect domestic livestock
from the introduction of diseases. These programs regulate the importation and quarantine of
live animals, including high-risk animals, such as birds from countries affected by Exotic
Newcastle Disease.

The 2008 Farm Bill amended the Federal Meat Inspection Act (FMIA) by requiring that
establishments covered by FMIA prepare and maintain procedures for recalling meat or meat
food products, and conduct documented reassessments of their control plans. The Poultry
Products Inspection Act was amended in a similar manner. When needed or requested, OIG
assesses FSIS’ oversight of recalls. The 2002 and 2008 Farm Bills also amended the
Agricultural Marketing Act to require retailers to notify their customers of the country of origin
of certain commodities at the final point of sale. The final rule on Country of Origin Labeling
(COOL) went into effect in March 2009.

Audit Work:

AMS Should Strengthen Country of Origin Labeling Compliance Monitoring
(Applicable principles: relevance; distinctiveness; oversight)

   ·   Food retailers must provide consumers with country of origin labels on certain food
       products so that consumers can make informed purchasing decisions. OIG evaluated
       how AMS implemented COOL regulations.

   ·   We found that the agency needs to strengthen its process for selecting and reviewing
       retailers for compliance, and decrease the time it takes to handle instances of
       noncompliance. Even when its reviews did identify problems, AMS did not always take
       swift action. Of the 5,528 reviews it conducted in 2010 that identified retailers who did
       not label their products correctly, AMS did not promptly provide formal written notice to
       1,719 retailers of their failure to comply because AMS was temporarily understaffed. In
       addition, the agency’s COOL compliance review selection process erroneously excluded
       retailers who must adhere to COOL. We identified at least 40 retailers in 15 States that
       were mistakenly not included in the selection process.

   ·   AMS agreed with our conclusions that it needed to strengthen its oversight of the
       program, including improving its retailer review process, enhancing its compliance
       procedures, and improving how it communicates with retailers (Implementation of
       Country of Origin Labeling, 01601-0004-Hy).

                                                          REPORT NUMBER 50099-0001-10           39
APHIS Needs to Strengthen Controls Over Animal Import Centers
(Applicable principles: effectiveness; oversight)

     ·   We initiated this audit to evaluate APHIS’ controls over the quarantine and tracking of
         animals at quarantine facilities, as well as the user fees APHIS charged importers to fund
         its facilities. APHIS port (i.e., airport) staff monitor the arrival and transport of imported
         animals to a quarantine facility, where import center officials observe and test those
         animals for foreign diseases.

     ·   APHIS’ procedures for handling animals destined for quarantine needed strengthening in
         areas such as port facility sanitation or biosecurity conditions at the quarantine facilities.
         APHIS did not identify these weaknesses prior to our audit because it did not exercise
         sufficient oversight to ensure requirements were implemented. As a result, there was a
         significantly increased risk that infected animals could enter the United States without
         being detected. In fact, we determined that infected animals had indeed entered the
         country and spread contagious diseases to other animals. In addition, we found that the
         fees APHIS charged importers do not cover operating costs and capital improvements
         needed for quarantine facilities to meet basic biosecurity requirements.

     ·   We recommended that APHIS implement supervisory reviews of its animal import
         process and biosecurity practices. We also recommended that APHIS implement
         procedures for handling animal shipments safely, and review user fee calculations.
         APHIS generally agreed with our findings and recommendations (USDA’s Controls Over
         Animal Import Centers, 33601-0011-Ch).

FSIS Controls Did Not Detect or Prevent the Inhumane Handling of Cattle
(Applicable principles: effectiveness; oversight)

     ·   In January 2008, the Humane Society of the United States released videos that
         documented the egregious abuse of cattle awaiting slaughter at a California
         slaughterhouse, which could have led to unsafe meat entering the food supply. This
         prompted a voluntary recall of 143 million pounds of raw and frozen beef products, the
         largest recall to date. Congress, USDA, and the public questioned how such events
         occurred at a slaughter establishment under inspection by FSIS. We conducted the audit
         to determine what inspection controls or processes may have broken down at the
         establishment, and whether the events were isolated or systemic.

     ·   We found that FSIS needed to develop a methodology to support its inspection resource
         allocations. FSIS could not demonstrate that the resources assigned to its offline
         inspection activities were sufficient to adequately perform the tasks assigned. At the
         same time, we could not determine whether FSIS assigns adequate supervisory oversight
         to in-plant inspection activities, because FSIS could not provide supportable work
         measurement assumptions. For example, supervisors were not aware of common
         practices used by in-plant inspection staff that did not meet FSIS requirements. Finally,


40       REPORT NUMBER 50099-0001-10
       FSIS could not demonstrate that its verification of establishment controls and written
       procedures for specified risk materials were adequate to detect noncompliance.

   ·   We recommended that FSIS’s oversight and controls of inspection processes need to be
       strengthened. FSIS should take action to demonstrate that its pre-slaughter inspection
       processes are consistently implemented. FSIS also needs to more fully use its
       management information systems to monitor compliance and obtain alerts of potential
       problems. We reached agreement with FSIS on all 25 recommendations (Evaluation of
       FSIS Management Controls Over Pre-Slaughter Activities, 24601-0007-KC).

Investigative Work:

Courts Impose Stricter Oversight on Meat Company that Caused Japan to Reject U.S.
Beef Imports

From January to July 2006, Japan halted U.S. beef imports—worth more than $1 billion
annually—due to the discovery of vertebrae in a shipment of beef product originating from a
U.S. company in Brooklyn, New York. OIG and FSIS jointly conducted an investigation into
this matter and, in response to our work, the Federal Government filed a civil complaint in
U.S. District Court, Eastern District of New York, charging the Brooklyn company with
violations of the FMIA as well as violations of AMS Export Verification Program’s Quality
Systems Verification Program. In April 2011, a U.S. District Court Judge approved legal
measures providing for permanent injunctive relief and escalating monetary penalties to prevent
this company from violating FMIA or AMS Export Verification Program rules in the future.
Additionally, in the event of future violations, the consent decree authorizes USDA to halt any
future exports, perform onsite inspections, and require onsite verification of the sufficiency of
corrective actions.




                                                         REPORT NUMBER 50099-0001-10            41
Crop Insurance and Disaster Assistance Programs

The cost of the Federal Crop Insurance Program (FCIP)—an average of about $7.3 billion
annually from 2009 through 2011—has come under increased scrutiny. Because of the Nation’s
severe budget constraints, and because crop prices have risen to record levels in recent years, so
too has the value of the crops being insured, which results in higher crop insurance premiums
and premium subsidies, as well as higher administrative cost reimbursements paid to crop
insurance companies and their agents.

For decades, Congress has authorized FCIP to help mitigate the financial risks inherent in
farming—potential losses of crop production and revenue. To encourage participation, USDA,
through the Risk Management Agency (RMA), subsidizes farmers’ insurance premiums, paying
about 60 percent of the cost, and acts as the primary reinsurer for the private insurance
companies that take on the risk of covering, or “underwriting,” losses to insured farmers. These
companies earn a profit (underwriting gains) when insurance premiums they collect exceed their
payments to farmers for crop losses, and they incur underwriting losses if their payments to
farmers for crop failures exceed the premiums. RMA also pays insurance companies an
administrative allowance to cover costs of selling and servicing policies. A standard reinsurance
agreement between RMA and the approved insurance providers (AIPs) establishes the terms and
conditions for the premium subsidies to farmers and the companies’ administrative allowance.
The chart below shows the administrative allowances and underwriting gains or losses paid to
crop insurance companies for 2000 through 2010.




The chart shows the costs associated with crop insurance (in millions of dollars) across the years 2000-2010. The
overall costs of administrative allowances (the higher bar) and underwriting gains (the lower bar) generally trend
upward. Source: GAO Analysis of USDA’s Risk Management Agency data; Congressional Research Service.




42      REPORT NUMBER 50099-0001-10
Although the AIPs are responsible for ensuring program integrity, RMA has overall
responsibility to ensure program oversight and quality controls. In crop year 2011, the total
shared liability under the Federal crop insurance programs amounted to $114.6 billion.

Audit Work:

RMA Needs to Strengthen Its Compliance Strategy to Ensure Program Integrity
(Applicable principles: relevance; effectiveness; oversight)

·   Prior audits by both OIG and GAO, dating back to 1993, have identified deficiencies in how
    RMA is providing overall oversight and monitoring of the crop insurance program. Because
    of these continuing concerns, we reviewed whether RMA’s compliance activities were
    adequate to improve program compliance and integrity, and to detect and reduce fraud,
    waste, and abuse. We also examined RMA’s compliance with the Improper Payments
    Information Act of 2002 and evaluated RMA’s corrective actions to address prior audit
    recommendations.

·   We found that the agency lacked a comprehensive, systematic, and well-defined strategy for
    improving the integrity of the crop insurance program. RMA had not performed and
    documented an overall risk assessment of its program operations to identify areas vulnerable
    to fraud, waste, and abuse. RMA’s compliance activities were piecemeal and fragmented,
    focusing on individual policy errors rather on systemic problems. We also found that RMA
    had not met the requirements of the Improper Payments Information Act of 2002. And
    lastly, RMA had not developed effective outcome-based performance measures to adequately
    determine its success in these efforts.

·   We made a number of recommendations to systematically strengthen RMA’s compliance
    activities, which included developing outcome-based performance measures and
    implementing a better method for calculating its improper payment error rate. RMA
    generally agreed with our recommendations (Risk Management Agency: Compliance
    Activities, 05601-0011-At).

USDA Needs to Reduce Vulnerabilities and Strengthen Integrity in Delivering Benefits
(Applicable principles: affordability; effectiveness)

·   In 2005, Hurricanes Katrina, Rita, and Wilma struck Florida, resulting in more than
    $275 million in nursery claims from policies reinsured under RMA’s Nursery Crop Insurance
    Program. OIG reviewed how well AIPs responded to this disaster. Also, since Hurricane
    Wilma damaged citrus crops that producers had insured under the Federal crop insurance
    program, we reviewed the effectiveness of RMA’s management controls on the adjustment
    of citrus fruit losses by two AIPs.

·   After initial nurseries fieldwork, we found pervasive errors in the underwriting and claims
    adjusting process that resulted in overpayments to one AIP’s insureds. We found that in all
    phases of the insurance process—underwriting policies, adjusting claims for losses, and
    reporting its indemnities to RMA—the AIP did not fulfill contractual obligations. For

                                                          REPORT NUMBER 50099-0001-10           43
     instance, by not verifying underwriting information submitted by agents, the AIP allowed its
     agents to determine the insured producers’ eligibility and coverage—a clear conflict of
     interest. The AIP also adjusted loss claims using loss procedures that were not authorized by
     RMA. The errors resulted in erroneous payments to policyholders of at least $16.6 million.
     Although the AIP performed quality control reviews for claims over $100,000, the quality
     control reviews did not review the eligibility of claims or detect numerous loss adjuster
     errors. Since the AIP did not properly fulfill its contractual obligations, the AIP seriously
     jeopardized program integrity and breached its fiduciary responsibilities to RMA.

     Through our review of 144 citrus claims with indemnities totaling $37 million, we found that
     the AIPs circumvented established RMA procedures for adjusting citrus losses. Instead, they
     used procedures or allowed options that were not approved by RMA. Further,
     AIP-conducted quality control reviews did not identify the problems we found.

·    With respect to the nurseries audit, since RMA may suspend an AIP for a material breach or
     failure to perform or comply with obligations, we recommended that RMA seek an opinion
     from OGC as to whether RMA can suspend the AIP from the program. We also
     recommended that RMA deny reinsurance for crop years 2005 and 2006. RMA generally
     concurred with our recommendations for recovery of overpayments and strengthening of
     AIP’s program management. However, based on an OGC opinion, RMA did not agree with
     recommendations to deny reinsurance and recover the Government’s share of expenses (Risk
     Management Agency: 2005 Emergency Hurricane Relief Efforts, 05099-0028-At).

     Based on our citrus audit, we recommended that RMA require the two AIPs to properly
     recalculate the indemnity payments, and, if they are unable to do so, deny the reinsurance on
     all of their loss claims, totaling $44.1 million. We also recommended that RMA strengthen
     its policies and procedures to include not allowing average yields and establishing a limited
     timeframe for its emergency procedures. RMA agreed with these management
     recommendations (Citrus Crop Indemnity Payments from Hurricane Wilma in Florida,
     05099-0029-At).

RMA Needs to Improve the Crop Insurance Premium Ratemaking Process
(Applicable principles: targeting; oversight)

·    We evaluated RMA’s policies and procedures for setting cotton crop insurance premium
     rates, and looked at historical losses for cotton and other major crops that use the actual
     production history automated ratemaking process. From 1975 to 2003, cotton and wheat
     premiums have not been sufficient to cover indemnities, resulting in net program losses
     totaling over $1.2 billion and $1.6 billion, respectively. Corn, however, has netted a surplus
     of $1.4 billion.

·    We found that RMA had not documented the detailed procedures needed to carry out the
     ratemaking process, and did not adequately oversee the functions of the contractor who
     developed and operated RMA’s rate-making system. Additionally, the agency lacked
     documentation related to a calculation value that was apparently not achieving its stated
     purpose—setting premium rates that are adequate to cover anticipated losses and build a

44      REPORT NUMBER 50099-0001-10
    reasonable reserve for all insurance plans in case of disaster. Also, RMA had not established
    a formal written policy to periodically review crop insurance premium rates.

·   We recommended that RMA improve its quality control over the ratemaking process to
    address the significant losses and inequities. We also recommended that RMA review
    ratemaking decisions and disaster reserve factor values, implement any changes needed, and
    establish formal written policies. RMA said it would perform an analysis for a more accurate
    indication of the current state of the crop insurance program. The agency also planned to
    contract with an actuarial firm to review, update, and document the disaster reserve factor.
    Finally, the agency planned to formally develop and document its procedures for the
    ratemaking process (Cotton Crop Insurance Premium Rates, 05601-0007-At).

Investigative Work:

North Carolina Farmers and Insurance Employees Sentenced in Crop Insurance Fraud
Investigation

Working jointly with the RMA-Special Investigations Branch and the Internal Revenue Service -
Criminal Investigation Branch, OIG found that a large number of farmers in North Carolina
concealed their production and then subsequently filed false crop insurance claims based on
non-existent losses. This was a far-reaching conspiracy, involving farmers, warehouse operators,
insurance agents, and loss adjusters, all of whom assisted in filing false claims and concealing
the farmers’ actual production. To date, as a result of their involvement in this crop insurance
scheme, 24 individuals have pled guilty to various crimes in Federal court for the Eastern District
of North Carolina, and the following sentencing actions occurred from October 1, 2010 to
September 30, 2011:
    · A crop insurance agent was sentenced to 30 months in prison and 3 years of probation
        after he pled guilty to charges of conspiracy to make materially false statements and
        conspiracy to commit money laundering. He was ordered to pay $16.6 million in
        restitution, and forfeit $366,307.
    · A tobacco buyer pled guilty to the same violations and was sentenced to 18 months in
        prison and 3 years of probation. In addition to paying $10.3 million in restitution, the
        tobacco buyer was also ordered to forfeit $647,139.
    · A loss adjuster was sentenced to 1 year in prison, followed by 2 years of probation, after
        pleading guilty to charges of making false statements and aiding and abetting. The court
        also imposed a fine of $158,000.
    · A farmer was sentenced to 60 months of probation, fined $3,000, and ordered to pay
        $41,820 in restitution after pleading guilty to conspiracy to make false statements in
        connection with FCIP.
    · A tobacco warehouseman was sentenced to 48 months in prison, followed by 36 months
        of probation, after pleading guilty to conspiracy to launder money. The court also
        imposed a fine of $10,000.
    · A farmer was sentenced to 1 day in prison and 60 months of probation, was ordered to
        pay $267,187 in restitution for his involvement in the scheme, and to be excluded for
        24 months from USDA programs.


                                                          REPORT NUMBER 50099-0001-10          45
     ·   A farmer was sentenced in September 2011 to 1 day in prison, 36 months of probation,
         24 months’ exclusion from USDA programs, and ordered to pay $138,777 in restitution.

Texas Cattle Association Members Repay $397,893 in Hurricane Rita-Related Livestock
Indemnity Funds

In August 2006, six members of a South Texas cattle association applied for and received
$397,893 in FSA livestock indemnity payments for cattle deaths they falsely claimed to be
related to Hurricane Rita. In August 2009, in the Southern District of Texas, all six members
were charged with conspiracy and false claims relating to their scheme to defraud the program.
In October 2010, the six members entered into the pre-trial diversion program administered by
the U.S. Attorney’s office. The U.S. Attorney’s office agreed to defer prosecution of this matter
for 12 months in return for $397,893 in restitution.




46       REPORT NUMBER 50099-0001-10
Miscellaneous

The miscellaneous title includes provisions affecting socially disadvantaged farmers and
ranchers, agricultural security, and animal welfare, among other issues.

The 2008 Farm Bill established the Office of Advocacy and Outreach to improve access to
USDA programs and the viability and profitability of small farms and ranches, beginning
farmers and ranchers, and socially disadvantaged farmers and ranchers. Under the 2008 Farm
Bill, Congress directed OIG to determine whether, over a 5-year period, FSA’s foreclosures for
direct farm program loans made to socially disadvantaged farmers and ranchers were consistent
and conformed with applicable laws and regulations.

The Department of Homeland Security’s (DHS) Customs and Border Protection (CBP) and
USDA work together to help ensure the safety of our Nation’s agricultural sector. CBP has the
responsibility to inspect agricultural goods arriving at a U.S. port of entry. APHIS, on the other
hand, is responsible for setting policies and procedures in areas such as agricultural inspections,
data collection, and risk assessment. APHIS also enforces Animal Welfare Act (AWA)
standards for the care and housing of certain animals used for research, exhibition, and
commerce. APHIS authorizes individuals, carnivals, zoos, circuses, and educational exhibitors
to display animals to the public by requiring them to obtain USDA exhibitor’s licenses.

Audit Work:

APHIS Needs to Take Steps to Ensure Safety at Animal Exhibitors
(Applicable principles: effectiveness; oversight)

   ·   After a 2007 tiger escape from the San Francisco zoo resulted in the death of a zoo
       patron, OIG conducted an audit of APHIS’ safety controls at zoos, circuses, and roadside
       attractions. Our auditors reviewed a sample of safety complaints to understand the scope
       of the problem nationwide.

   ·   At 15 of 31 exhibitors visited, we identified many safety issues where the public was not
       adequately protected from wild animals, and the animals themselves were at risk for
       injury and harassment. Visitors at one facility were so close to an exhibited cougar that
       they could have reached into its cage. APHIS’ safety guidance was worded broadly to
       allow for the particularities of different animals and different enclosures, but this
       ambiguity can lead to inconsistent safety standards. We also found that APHIS did not
       have a system in place to document and disseminate details of dangerous animal escapes
       and subsequent corrective actions taken.

   ·   We recommended that APHIS clarify its guidance about safe distances and barriers,
       consult experts when needed, and implement procedures to ensure that inspectors review
       all public safety-related areas. We also recommended APHIS develop a system to
       document and disseminate details of dangerous animal escapes and subsequent corrective
       actions taken. APHIS agreed to undertake a safety review of all licensed dangerous


                                                           REPORT NUMBER 50099-0001-10           47
         animal exhibits nationwide (Controls Over APHIS Licensing of Animal Exhibitors,
         33601-0010-Ch).

APHIS Needs to Strengthen Oversight of Repeat Dog Abusers
(Applicable principles: relevance; effectiveness)

     ·   As part of OIG’s ongoing work on dog breeding, we undertook this audit to review
         APHIS’ enforcement process against dealers that violated AWA, focusing on dealers
         with a history of violations in the past 3 years. We also reviewed the impact of recent
         changes the agency made to the penalty assessment process.

     ·   Our audit uncovered details of serious abuse by puppy mill operators. APHIS inspection
         and enforcement activities were not adequate to deter dog dealers regulated by AWA
         from repeated violations that endangered animals. For example, one dealer’s abuse led to
         the deaths of 27 dogs; meanwhile, other starving dogs resorted to cannibalism. Despite
         the high rate of recurring violations, some inspectors did not correctly report repeat and
         serious violations. Further, APHIS did not make full use of its enforcement options—in
         many cases, issuing minimal penalties or assessing inappropriately lowered fines.
         Instead of taking strong enforcement action, APHIS generally chose to try education and
         cooperation as tools to convince dealers to comply. Finally, a loophole in the pre-internet
         AWA (passed in 1966) has allowed large internet operations to sell animals without
         regulatory oversight.

     ·   APHIS responded immediately to our recommendations, imposing tougher penalties for
         repeat violators, revising manuals, training inspectors, and strengthening enforcement
         procedures. The agency also agreed to seek legislative change that would allow it to
         regulate internet dog dealers (Animal and Plant Health Inspection Service: Animal Care
         Program: Inspections of Problematic Dealers, 33002-0004-SF).

CBP and APHIS Should Strengthen Their Respective Agricultural Inspections Activities
(Applicable principles: distinctiveness; effectiveness; oversight)

     ·   After certain agricultural inspection activities were transferred to CBP in 2003, USDA
         OIG teamed up with DHS OIG to evaluate the effectiveness of APHIS and CBP in
         safeguarding U.S. agriculture from incursions by foreign pests and diseases.

     ·   While the two Departments had made progress in correcting deficiencies noted in
         previous audits, further improvement was needed. For instance, we identified sampling
         activities that did not meet requirements, staff that did not follow proper sampling
         procedures, and inaccurate data used to track inspection activities.

     ·   In response to our recommendations, APHIS agreed to issue policy guidance to clarify
         CBP’s responsibilities for certain permits and for the handling of seized agricultural
         products at ports of entry. APHIS also agreed to develop a process to allow both
         agencies to assess the risk of agricultural products entering the country by rail (Review of
         Customs and Border Protection’s Agriculture Inspection Activities, 33601-0007-Ch).

48       REPORT NUMBER 50099-0001-10
Decisions to Foreclose on Socially Disadvantaged Borrowers Were Generally Consistent
and Compliant
(Applicable principle: oversight)

   ·   Under the 2008 Farm Bill, Congress directed OIG to determine whether, over a 5-year
       period, FSA’s foreclosures for direct farm program loans made to socially disadvantaged
       farmers or ranchers were consistent and conformed with applicable laws and regulations.
       For FYs 2003 through 2007, FSA foreclosed on 800 borrowers, of which 185 were
       socially disadvantaged. OIG selected a statistical sample of 146 borrowers—socially
       disadvantaged and non-socially disadvantaged—who were foreclosed on during this
       5-year period.

   ·   We found that the Department’s decisions to implement foreclosure proceedings on
       socially disadvantaged borrowers were generally consistent and in conformity with
       applicable laws and regulations.

   ·   Although we did find some timeliness issues, we concluded that the rate of exception was
       low. Also, for the exceptions noted, there was no statistically significant difference in
       treatment when foreclosing on socially disadvantaged farmers and ranchers compared to
       their non-socially disadvantaged peers. For example, the exceptions included a few cases
       in which letters notifying borrowers that they were delinquent were not sent out on a
       timely basis. Still, letters were eventually sent before the next loan servicing action
       occurred. Therefore, we made no recommendations (Farm Service Agency: Socially
       Disadvantaged Borrower Foreclosures–Farm Program Loans, 03601-0049-Te).

Investigative Work:

Michigan Dog Fighting Ring Broken Up

Working with the Monroe County, Michigan, Sheriff’s Department, the Michigan State Police,
and the Michigan Humane Society, an OIG investigation led to the arrest of 27 individuals for
organizing and attending a championship dog fighting match in southeast Michigan. The event
drew participants from four States, including individuals from as far away as Georgia. With the
assistance of the Monroe County Prosecutor’s Office, OIG agents obtained a search warrant,
disrupted the fight, and arrested the participants. Five pit bull fighting dogs were seized during
the raid, two of which died from injuries suffered during the championship fight. Officers also
seized approximately $40,000 in cash, cocaine, marijuana, two firearms, and dog fighting
paraphernalia. Many of the defendants pled guilty to felony charges of attending and
participating in an animal fighting venture. During August and September 2011, two of the
ringleaders received sentences ranging from 8 to 15 years’ incarceration and fines totaling
$7,849. The remaining participants await sentencing.




                                                          REPORT NUMBER 50099-0001-10           49
Major Animal Fighting Criminal Enterprise Disrupted in Virginia

An extensive investigation of illegal cockfighting in Virginia resulted in the successful Federal
prosecution of numerous individuals. The investigation first focused on four individuals who
owned, operated, or supported a sportsman’s club that hosted illegal cockfights almost weekly
in a building outfitted for cockfighting. Participants throughout the East Coast brought their
fighting birds, paid entry fees, and illegally gambled on the outcomes of the fights. The then-
sheriff of Page County accepted campaign contributions to protect the club from raids by law
enforcement.

The Federal Bureau of Investigation (FBI) and the Internal Revenue Service-Criminal
Investigation developed evidence of money laundering, failure to pay taxes, and corrupt
practices by the then-sheriff. A game bird association that lobbied to make cockfighting a
legal sport and its president were prosecuted for violating Federal campaign contribution laws
by hiding the true source of contributions.

In August 2009, the owner of the sportsman’s club was sentenced to 16 months in prison and
forfeiture of $100,000; its manager was sentenced to 18 months in prison and a $1,000 fine;
and two other individuals who supported the club were sentenced to 6 months in prison and
home confinement and probation, along with $5,750 in fines. The game bird association
forfeited approximately $13,000, and its president was fined $7,500. In October 2008, the
sheriff was suspended from his duties after his indictment and arrest and then resigned in
February 2009. In August 2009, the former sheriff pled guilty to a racketeering charge,
misusing inmate labor for personal gain, and obstruction of justice by intimidating witnesses.
In December 2009, the former sheriff of Page County was sentenced to 19 months in prison,
after pleading guilty to charges of racketeering, misusing inmate labor for personal gain, and
obstruction of justice by intimidating witnesses. He was also ordered to pay fines and
restitution totaling about $5,000 and to forfeit $75,000.

Horse Protection Act Violations

On November 21, 2011, in Federal court for the Middle District of Tennessee, a horse trainer
was sentenced to 24 months of probation after he pled guilty to violating the Horse Protection
Act (HPA) by knowingly transporting a horse with legs and hooves that had been intentionally
injured (“sored”). Our investigation found that, in July 2009, a horse trained by this individual
was sent to a show with intentionally sored legs and with a device in its mouth meant to distract
its attention from discomfort caused when inspectors examined its legs. Both measures are
violations of HPA provisions that were enacted to protect Tennessee walking horses from being
subjected to hidden, intentional physical injuries as a means to exaggerate their distinctive gait.
We also learned that paperwork submitted for the show contained false information on the
identity of the horse’s trainer. The trainer was charged in October 2011 with one count of
violating HPA. As a condition of the plea agreement, the trainer agreed to allow USDA
representatives to make unannounced visits to his training facility throughout the period of his
probation to check on the welfare of horses under his care.



50     REPORT NUMBER 50099-0001-10
Appendix I: Scope and Methodology
To identify the universe of audits for this report, we ran a query of all audit reports issued from
October 1, 2003, (the start of FY 2004) through February 29, 2012 (the date we ran the query).
We identified 558 audit reports issued. We reviewed executive summaries, scopes, objectives,
and backgrounds of the audits to determine if they applied to farm bill programs. We excluded
audits of contracting and procurement, those required by the Single Audit Act, audits of financial
statements, audits on information technology, and those involving the Forest Service’s National
Forest System.13 We identified 254 audits related to the 2002 or 2008 Farm Bills, which are
listed in Appendix II by title.

We then reviewed the 254 audits to identify those whose results could be beneficial to decision
makers for the next farm bill. We selected 40 audits for inclusion in this report. Using GAO’s
list of principles we reviewed these 40 reports, focusing on their findings and recommendations,
to identify the applicable GAO principles for each audit report. We then summarized our reports
and highlighted the relevant principles as they apply to farm bill titles. We note that this report is
a compilation of previously issued audit reports that have been discussed with Departmental
management. These audit reports are publicly available and, in preparing this report, we did not
conduct any additional audit work. We obtained comments on a draft of this report from USDA
officials, who provided technical comments that we incorporated as appropriate.

According to the Office of the Chief Financial Officer, 20 of the 40 audits included in this report
have had corrective actions taken on all recommendations14. We did not evaluate the sufficiency
of any corrective actions implemented as a result of our audit recommendations, and therefore
have not made any statements regarding the results of corrective actions in this report.

The report summaries correspond to most, but not all, of the titles in the 2008 Farm Bill because
since October 2003, USDA OIG has not produced a significant body of work related to a few
titles. The 2008 Farm Bill titles without a significant body of USDA OIG work since 2003
include Title VIII (Forestry), Title XIII (Commodity Futures), and Title XV (Trade and Taxes).

We have also provided representative examples of our most relevant investigative cases since
2003, where appropriate. OIG had reportable investigative work for most, but not every, title of
the farm bill.




13
   The Forestry Title of the farm bill refers only to some State and private forestry programs administered by the
Forest Service, and does not include those of the Forest Service National Forest System, which is funded and
authorized separately from the other USDA programs.
14
   As of March 27, 2012.


                                                                     REPORT NUMBER 50099-0001-10                     51
Appendix II: List of Related USDA OIG Products

Title I, Commodity Programs

Calendar Year 2010 Executive Order 13520, Reducing Improper Payments, High Dollar Report
Review. 50024-0001-FM. July 15, 2011.15

Fiscal Year 2010 Farm Service Agency Farm Assistance Program Payments. 03024-0001-11.
June 21, 2011.

Agreed-Upon Procedures – Farm Service Agency Average Crop Revenue Election Program,
Sheridan County, Montana. 03099-0199-KC. December 10, 2010.

Farm Service Agency’s Reliance on the National Agricultural Statistics Service’s Published
Peanut Prices. 50601-0014-KC. March, 31, 2009.

Farm Service Agency: Payment Limitation Attestation Review in Wharton County, Texas.
03099-0182-Te. October 23, 2008.

Methodology for Establishing National/Regional Loan Rates for USDA’s Pulse Crop Loan
Program. 03601-0026-KC. September 25, 2008.

Farm Service Agency: Payment, Limitation Review in Louisiana. 03099-0181-Te. May 8, 2008.

Identification and Reporting of Improper Payments in FSA High Risk Programs.
03601-0016-Ch. March 27, 2008.

Improper Payments: Monitoring the Progress of Corrective Actions for High-Risk Programs in
the Farm Service Agency. 03601-0014-Ch. May 18, 2007.

Farm Service Agency: Efforts to Identify and Recover Overpayments in the Direct and
Counter-Cyclical Program. 03008-0001-At. December 12, 2006.

Farm Service Agency: Disposition of Nonfat Dry Milk. 03099-0197-KC. September 20, 2006.

Farm Service Agency: Nonrecourse Marketing Assistance Farm-Stored Loans. 03601-0047-Te.
September 13, 2006.

Farm Service Agency: Direct and Counter-Cyclical Program. 03099-0196-KC. April 24, 2006

Farm Service Agency: Tracking Finality Rule and Equitable Relief Decisions. 03601-0044-Te.
March 27, 2006.



15
     Other agencies and provisions are also included in this audit.

52         REPORT NUMBER 50099-0001-10
Farm Service Agency’s Progress To Implement the Improper Payments Information Act of 2002.
03601-0013-Ch. March 6, 2006.

Farm Service Agency: Compliance Activities. 03601-0012-Ch. September 30, 2005.

Farm Service Agency: Compliance with the Improper Payments Act of 2002. 03601-0046-Te.
March 21, 2005.

USDA Compliance with the Improper Payments Information Act of 2002. 50601-0008-Ch.
January 11, 2005. 16

Farm Service Agency: Milk Income Loss Contract (MILC) Program. 03601-0010-Ch.
December 21, 2004.

Farm Service Agency: Farm Programs Audit in a Louisiana Parish. 03601-0042-Te.
March 19, 2004.

Farm Service Agency: Review of the 2002 Farm Bill Commodity Loan and Payment Rates.
03601-0020-KC. December 22, 2003.

Title II, Conservation

Controls Over the Farm and Ranch Lands Protection Program in Michigan. 10099-0003-Ch.
September 14, 2011.

Natural Resources Conservation Service: Farm and Ranch Lands Protection Program: Review
of Non-Governmental Organizations. 10099-0006-SF. July 6, 2009.

Natural Resources Conservation Service: Conservation Security Program. 10601-0004-KC.
June 25, 2009.

Farm Service Agency: Hurricane Relief Initiatives: Emergency Forestry Conservation Reserve
Program. 03601-0024-KC. September 17, 2008

Natural Resources Conservation Service: Wetlands Reserve Program Wetlands Restoration and
Compliance. 10099-0004-SF. August 25, 2008.

Natural Resources Conservation Service: Status Review Process. 50601-0013-KC.
June 11, 2008.

Natural Resources Conservation Service and Farm Service Agency: Crop Bases on Lands with
Conservation Easements in California. 50099-0011-SF. August 27, 2007.




16
     Other agencies and provisions are also included in this audit.

                                                                      REPORT NUMBER 50099-0001-10   53
Evaluation Report: Saving the Chesapeake Bay Watershed Requires Better Coordination of
Environmental and Agricultural Resources. 50601-0010-HQ. November 20, 2006.

Natural Resources Conservation Service: Farm and Ranch Lands Protection Program in
Alabama. 10099-0005-SF. September 5, 2006.

Improper Payments – Monitoring the Progress of Corrective Actions for High Risk Programs in
Natural Resources Conservation Service. 10601-0003-Ch. June 12, 2006.

Natural Resources Conservation Service: Wetlands Reserve Program Compensation for
Easements Washington, D.C. 10099-0003-SF. August 8, 2005.

Natural Resources Conservation Service: Environmental Quality Incentives Program.
10099-0018-KC. February 28, 2005.

Natural Resources Conservation Service: USDA Compliance with the Improper Payments
Information Act of 2002. 10601-0003-KC. January 10, 2005.

Title III, Trade

USDA’s Role in the Export of Genetically Engineered Agricultural Commodities.
50601-0014-Te. February 20, 2009.17

Farm Service Agency: Inspection of Temporary Domestic Storage Sites for Foreign Food
Assistance. 03099-0198-KC. August 22, 2008.

Export Credit Guarantee Program. 07601-0002-Hy. July 22, 2008.

Foreign Agricultural Service: Implementation of the Trade Title of the 2002 Farm Bill and the
President’s Management Agenda. 50601-0012-At. March 28, 2007.

Foreign Agricultural Service: Trade Promotion Operations. 07601-0001-Hy.
February 22, 2007.

Foreign Agricultural Service: Private Voluntary Organization Grant Fund Accountability.
07016-0001-At. March 15, 2006.

Farm Service Agency: Analysis of Farm Service Agency/Commodity Credit Corporation Wheat
Sales. 03801-0006-KC. September 30, 2004.

Title IV, Nutrition

Identifying Areas of Risk in the Child and Adult Care Food Program (CACFP) Using Automated
Data Analysis Tools. 27099-0001-DA. January 31, 2012.


17
     Report also discuses information contained under Title VII – Research and Related Matters.

54         REPORT NUMBER 50099-0001-10
Analysis of Louisiana’s Supplemental Nutrition Assistance Program (SNAP) Eligibility Data.
27002-0003-13. January 31, 2012.

Analysis of Alabama’s Supplemental Nutrition Assistance Program (SNAP) Eligibility Data.
27002-0004-13. January 31, 2012.

Analysis of Mississippi’s Supplemental Nutrition Assistance Program (SNAP) Eligibility Data.
27002-0005-13. January 31, 2012.

State Fraud Detection Efforts for the Supplemental Nutrition Assistance Program.
27703-0002-Hy. January 27, 2012.

Analysis of Florida’s Supplemental Nutrition Assistance Program (SNAP) Eligibility Data.
27002-0002-13. November 29, 2011.

Analysis of Kansas’ Supplemental Nutrition Assistance Program (SNAP) Eligibility Data.
27002-0001-13. November 23, 2011.

Analysis of Supplemental Nutrition Assistance Program (SNAP) Anti-Fraud Locator EBT
Retailer Transactions (ALERT) Database. 27002-0001-DA. November 22, 2011.

Controls Over Outsourcing of Food and Nutrition Service’s Supplemental Nutrition Assistance
Program Electronic Benefits Transfer Call Centers. 27703-0001-Te. June 30, 2011.

Calendar Year 2010 Executive Order 13520, Reducing Improper Payments, Accountable Official
Report Review. 50024-0002-FM. March 23, 2011.

Recovery Act Equipment and Facility Assistance – Food and Nutrition Service’s Food
Distribution Program on Indian Reservations Phase I. 27703-0002-HQ. September 30, 2010.

Oversight of the Recovery Act WIC Contingency Funds. 27703-0001-Ch. April 22, 2010.

Followup on the Agricultural Marketing Service’s Purchases of Frozen Ground Beef.
01601-0002-Hy. April 12, 2010

Review of the Emergency Food Assistance Program. 27703-0001-At. March 31, 2010.

Summary of Nationwide Electronic Benefits Transfer Operations. 27099-0071-Hy.
January 26, 2010.

Funds Provided by the American Recovery and Reinvestment Act for Management and Oversight
of the Supplemental Nutrition Assistance Program. 27703-0001-Hy. December 16, 2009.

Supplemental Nutrition Assistance Program Benefits and the Thrifty Food Plan.
27703-0001-KC. December 3, 2009.


                                                       REPORT NUMBER 50099-0001-10           55
Follow-up on FNS Disaster Supplemental Nutrition Assistance Program for Hurricanes Katrina
and Rita. 27601-0011-Te. June 2, 2009.

Monitoring of CACFP Sponsor, Collaborative Network, Toledo, Ohio. 27601-0037-Ch.
February 26, 2009.

Food and Nutrition Service’s Continued Monitoring of EBT Operations – State of California
Department of Social Services. 27099-0035-SF. December 4, 2008.

Food Stamp Program Retailer Authorization and Store Visits. 27601-0015-At.
September 26, 2008.

Food and Nutrition Service: Food Stamp Program: Administrative Costs New Jersey.
27002-0025-Hy. September 10, 2008.

Electronic Benefits Transfer System State of Colorado. 27099-0068-Hy. June 20, 2008.

Food and Nutrition Service: Summer Food Service Program Operated by the State of Georgia.
27099-0063-At. March 31, 2008.

Food Stamp Employment and Training Program. 27601-0016-At. March 31, 2008.

Food and Nutrition Service: JPMorgan EFS’ Oversight of EBT Operations. 27099-0069-Hy.
September 28, 2007.

Food and Nutrition Service: Disaster Food Stamp Program for Hurricanes Katrina and Rita –
Louisiana, Mississippi, and Texas. 27099-0049-Te. September 4, 2007.

Food and Nutrition Service: Western Region Summer Food Service Program California and
Nevada. 27099-0034-SF. August 17, 2007.

Special Supplemental Nutrition Program for Women, Infants, and Children, Puerto Rico.
27004-0004-At. May 24, 2007.

Meal Accountability at Choice Schools in Milwaukee, Wisconsin. 27004-0005-Ch. May 3, 2007.

Food and Nutrition Service: National Office Oversight of Electronic Benefits Transfer
Operations. 27099-0066-Hy. September 28, 2006.

Food and Nutrition Service: Child Nutrition Labeling Program. 27601-0013-Hy.
September 28, 2006.

Food and Nutrition Service: Disaster Food Stamp Program for Hurricanes Katrina, Rita, and
Wilma – Alabama and Florida. 27099-0061-At. August 30, 2006.



56     REPORT NUMBER 50099-0001-10
Food and Nutrition Service: Food Stamp Program, ALERT Watch List. 27099-0032-SF.
July 28, 2006.

Child and Adult Care Food Program: Supper Meals Served in Schools. 27601-0035-Ch.
July 14, 2006.

WIC Administrative Costs in Georgia. 27002-0002-At. March 31, 2006.

USDA’s Progress to Implement the Improper Payments Information Act of 2002.
50601-0010-Ch. February 13, 2006. 18

Food and Nutrition Service: Special Wages Incentive Program in Puerto Rico. 27099-0060-At.
December 23, 2005.

Food and Nutrition Service: National School Lunch Program: Cost-Reimbursable Contracts
with a Food Service Management Company. 27601-0015-KC. December 9, 2005.

Audit of the Avella, PA School District’s Use of National School Lunch Program Funds.
27010-0034-Hy. December 1, 2005.

Food and Nutrition Service: Special Supplemental Nutrition Program For Women, Infants, and
Children: Administrative Costs – Oregon. 27099-0033-SF. November 16, 2005.

Agricultural Marketing Service Management Controls to Ensure Compliance with Purchase
Specification Requirements for Ground Beef. 01099-0031-Hy. September 7, 2005.

Monitoring of CACFP Providers in Minnesota. 27010-0018-Ch. October 28, 2005

Controls Over the Minnesota Department of Education’s Use of Federal Funds. 27010-0019-Ch.
June 22, 2005.

Agricultural Marketing Service: Contract and Competitive Bidding Practices. 01601-0001-KC.
January 31, 2005.

Food and Nutrition Service: Controls Over USDA-Donated Commodities. 27601-0033-Ch.
September 30, 2004.

Food and Nutrition Service: National School Lunch Program: Unified School District 480,
Liberal, Kansas. 27010-0022-KC. September 30, 2004.

Chicago SFA’s Accountability and Oversight of the NSLP, SBP, and CACFP Supper.
27010-0017-Ch. September 30, 2004.




18
     Report also discusses information contained under Title I – Commodity Programs.

                                                                    REPORT NUMBER 50099-0001-10   57
Food and Nutrition Service: Compliance with Improper Payments Reporting Requirements.
27601-0032-Ch. September 28, 2004.

Food and Nutrition Service: Summer Food Service Program, State of Nevada. 27099-0031-SF.
August 24, 2004.

Controls Over USDA Donated Commodities, For the Year Ended June 30, 2004.
27601-0011-SF. August 6, 2004.

Food and Nutrition Service: Vendor Sanction Policies. 27002-0001-At. July 15, 2004.

Food and Nutrition Service: National School Lunch and Breakfast Programs Attendance and
Meal Count Analysis: Philadelphia School Food Authority: Philadelphia, Pennsylvania.
27010-0031-Hy. June 25, 2004.

Summary of Audit Results, Continued Monitoring of EBT System Development – State of
New Jersey. 27099-0065-Hy. May 21, 2004.

Food and Nutrition Service: National School Lunch Program: Kearney R-I School District:
Kearney, Missouri. 27010-0020-KC. May 11, 2004.

Food and Nutrition Service: National School Lunch Program: Platte County R-III District:
Platte City, Missouri. 27010-0021-KC. April 15, 2004.

Food and Nutrition Service: National School Lunch Program: Unified School District 497:
Lawrence, KS. 27010-0014-KC. March 26, 2004.

Accountability and Oversight of the National School Lunch Program – San Lorenzo Unified
School District For the Year Ended June 30, 2003. 27099-0024-SF. March 26, 2004.

Food and Nutrition Service: National School Lunch Program: Unified School District 257: Iola,
Kansas. 27010-0015-KC. March 26, 2004.

Food and Nutrition Service: National School Lunch Program: Unified School District 341:
Oskaloosa, Kansas. 27010-0017-KC. March 26, 2004.

Food and Nutrition Service: Continued Monitoring of EBT System Development: State of
New Mexico. 27099-0018-Te. March 18, 2004.

Food and Nutrition Service: Special Supplemental Nutrition Program for Women, Infants, and
Children: State of New York. 27099-0062-Hy. March 8, 2004.

Food Stamp Employment and Training Program – California. 27099-0023-SF.
February 19, 2004.




58     REPORT NUMBER 50099-0001-10
Food and Nutrition Service: National School Lunch Program: Unified School District 453:
Leavenworth, Kansas. 27010-0016-KC. February 18, 2004.

Food and Nutrition Service: National School Lunch Program: Odessa R-VII School District:
Odessa, Missouri. 27010-0019-KC. February 18, 2004.

Food and Nutrition Service: Accountability and Oversight of the National School Lunch
Program in Texas. 27010-0005-Te. January 23, 2004.

Bellwood SFA’s Administration of the National School Lunch Program. 27010-0016-Ch.
December 3, 2003.

Food and Nutrition Service: Accountability and Oversight of the National School Lunch
Program: Star Programs, Inc., Ingram, TX. 27010-0009-Te. October 9, 2003.

Title V, Credit

American Recovery and Reinvestment Act – Direct Farm Operating Loans (Phase 2).
03703-0002-Te. January 13, 2011.

FSA Farm Loan Security. 03601-0018-Ch. August 10, 2010.

American Recovery and Reinvestment Act – Direct Farm Operating Loans (Phase 1).
03703-0001-Te. February 25, 2010.

Farm Service Agency: Controls Over Emergency Loans Reductions for Duplicate Benefits.
03601-0013-SF. December 15, 2009.

Controls Over Guaranteed Farm Loan Interest Rates and Interest Assistance. 03601-0017-Ch.
September 29, 2008.

Farm Service Agency: Debt Forgiveness Restrictions on Borrower Eligibility for Farm Loan
Programs. 03016-0002-Te. March 31, 2006.

Minority Participation in Farm Service Agency’s Programs. 03601-0011-At.
November 17, 2005.19

Title VI, Rural Development

Rural Development: American Recovery and Reinvestment Act – Business and Industry
Guaranteed Loans - Phase 2. 34703-0002-Te. February 13, 2012.

Controls Over Eligibility Determinations for SFH Guaranteed Loan Recovery Act Funds
(Phase 2). 04703-0002-Ch. September 30, 2011.


19
     Report also discusses information contained under Title XIV – Miscellaneous.

                                                                     REPORT NUMBER 50099-0001-10   59
Rural Cooperative Development Grant Program Eligibility and Grant Fund Use for a Missouri
Entity. 34004-0001-KC. August 25, 2011.

Audit of a Rural Rental Housing Management Company Located in Indiana. 04601-0020-Ch.
May 19, 2011.

Controls Over Rural Housing Service Disaster Assistance Payments. 04601-0019-Ch.
February 7, 2011.

Rural Business-Cooperative Service: Review of Lender with Business and Industry Guaranteed
Loans. 34099-0008-Te. December 27, 2010.

Rural Utilities Service Controls Over Water and Waste Disposal Loans and Grants.
09601-0001-At. September 30, 2010.

Rural Business-Cooperative Service: Review of Lender with Business and Industry Guaranteed
Loan in Louisiana. 34099-0011-Te. September 29, 2010.

Single-Family Housing Direct Loans Recovery Act Controls – Phase II. 04703-0002-KC.
September 24, 2010.

Rural Utilities Service: Rural or Native Alaskan Village Grants. 09099-0002-SF.
September 9, 2010.

Controls Over Rural Community Facilities Direct Loan and Grant Program Recovery Act
Activities - Phase 1. 04703-0001-Hy. June 29, 2010.

Rural Business-Cooperative Service: Review of Lender with Business and Industry Guaranteed
Loan in Maryland. 34099-0009-Te. June 24, 2010.

American Recovery and Reinvestment Act – Business and Industry Guaranteed Loan Program
(Phase 1). 34703-0001-Te. March 31, 2010.

Controls over Recovery Act Rural Business Enterprise Grants. 34703-0001-KC.
March 31, 2010.

Review of Lender with Business and Industry Guaranteed Loan in Virginia. 34099-0010-Te.
December 29, 2009.

Review of Lender with Business and Industry Guaranteed Loan in Louisiana. 34099-0012-Te.
December 29, 2009.

Single-Family Housing Direct Loans Recovery Act Controls – Phase I. 04703-0001-KC.
November 5, 2009.



60     REPORT NUMBER 50099-0001-10
Controls Over Eligibility Determinations for Single Family Housing Guaranteed Loan Recovery
Act Funds. 04703-0001-Ch. September 30, 2009.

Multi-Family Housing Loans in Texas. 04099-0212-Te. August 25, 2009.

Controls Over Lender Activities in the SFH Guaranteed Loan Program. 04601-0017-Ch.
July 2, 2009.

Request Audit of Oklahoma Rural Rental Housing Management Company. 04099-0211-Te.
April 28, 2009.

Rural Utilities Service: Broadband Loan and Loan Guarantee Program. 09601-0008-Te.
March 31, 2009.

Rural Utilities Service: Texas Community Connect Grantee Close-out Audit. 09601-0006-Te.
July 3, 2008.

Rural Utilities Service: Implementation of Loan and Grant Programs That Promote Renewable
Energy. 09601-0007-Te. March 21, 2008.

Rural Housing Service: Guaranteed Rural Rental Housing Program - Bond Financing.
04099-0106-SF. March 18, 2008.

Rural Development’s Single-Family Housing Force Placed Insurance Program.
04099-0139-KC. September 28, 2007.

Rural Development: Lender’s Origination and Servicing of a Guaranteed Rural Rental Housing
Loan - State of Mississippi. 04601-0009-SF. September 28, 2007.

Rural Housing Service: Controls Over Single Family Housing Grants and Loans.
04601-0016-Ch. September 25, 2007.

Controls Over Single Family Housing Funds Provided For Hurricane Relief Efforts.
04601-0015-Ch. March 30, 2007.

Improper Payments: Monitoring the Progress of Corrective Actions for High-Risk Programs in
Rural Housing Service. 04601-0014-Ch. March 20, 2007.

Rural Business-Cooperative Service: Business and Industry Direct Loan: Lehigh Coal and
Navigation Company. 34004-0008-Hy. January 31, 2007.

Guaranteed Rural Housing Loan Program Followup. 04601-0003-At. September 29, 2006.

Controls Over Multi-Family Housing Funds Provided for Hurricane Relief Efforts.
04601-0013-Ch. September 28, 2006.



                                                      REPORT NUMBER 50099-0001-10          61
Rural Housing Service: Single-Family Housing Program: Borrower Income Verification
Procedures. 04099-0341-At. August 14, 2006.

Rural Business-Cooperative Service: Value-Added Agricultural Product Market Development
Grant Program. 34601-0004-KC. July 28, 2006.

Community Facilities Program. 04601-0004-At. June 22, 2006.

Rural Rental Housing Loan Prepayment and Restrictive Use Agreements. 04601-0012-Ch.
April 14, 2006.

Rural Utilities Service’s Progress To Implement the Improper Payments Information Act of
2002. 09601-0001-Ch. March 7, 2006

Rural Housing Service’s Progress To Implement the Improper Payments Information Act of
2002. 04601-0011-Ch. February 24, 2006.

Rural Business-Cooperative Service’s Progress to Implement the Improper Payment Information
Act of 2002. 34601-0004-Ch. February 8, 2006.

Rural Utilities Service: Broadband Grant and Loan Programs. 09601-0004-Te.
September 30, 2005.

Rural Business-Cooperative Service: Request Audit of Business and Industry Loan in Arkansas.
34099-0007-Te. September 29, 2005.

Single-Family Housing Program in South Carolina. 04099-0340-At. August 31, 2005.

Rural Development: Water Grants to the City of Frostburg, Maryland. 09099-0003-Hy.
June 14, 2005.

Rural Housing Service: Subsidy Payment Accuracy In Multi-Family Housing Program.
04099-0339-At. March 23, 2005.

Rural Development: Compliance with the Improper Payments Information Act of 2002.
04601-0010-Ch. January 27, 2005.

Rural Business-Cooperative Service: Television Demonstration Grant Program. 34099-0001-
Hy. September 30, 2004.

Rural Housing Service: Rural Rental Housing Project Management. 04016-0001-Ch.
September 30, 2004.

Rural Rental Housing Program:              Housing Development Corporation: Cairo, Illinois.
04099-0143-Ch. September 30, 2004.



62     REPORT NUMBER 50099-0001-10
Rural Development - Local Governments’ Management of Multi-Family Housing Projects in
North Carolina. 04004-0004-At. July 15, 2004.

Accuracy of Single Family Housing Borrower Accounts. 04601-0009-Ch. June 30, 2004.

Rural Business-Cooperative Service: Value-Added Agricultural Product Market Development
Grant Program. 34601-0003-KC. April 23, 2004.

Rural Development’s Escrow Process for Single Family Housing Borrowers. 04601-0008-Ch.
February 2, 2004.

Rural Development: Audit of the Housing Authority of the City of Moultrie, Georgia.
04010-0001-At. January 9, 2004.

Title VII, Research and Related Matters

USDA’s Response to Colony Collapse Disorder. 50099-0084-Hy. January 20, 2012.

Controls over Genetically Engineered Animal and Insect Research. 50601-0016-Te.
May 31, 2011.
Cooperative State Research, Education, and Extension Service – 1994 Land-Grant Institutions.
13011-0003-At. August 17, 2007.

Cooperative State Research, Education, and Extension Service’s Progress to Implement the
Improper Payments Information Act of 2002. 13601-0001-Ch. February 8, 2006.

Animal and Plant Health Inspection Service: Controls Over Issuance of Genetically Engineered
Organism Release Permits. 50601-0008-Te. December 8, 2005.20

Cooperative State Research, Education, and Extension Service Compliance with the Improper
Payments Information Act of 2002. 13601-0002-At. January 7, 2005.

Title VIII, Forestry

Forest Service: Forest Legacy Program. 08601-0056-SF. April 20, 2011.

Title IX, Energy

Implementation of Renewable Energy Programs in USDA. 50601-0013-Ch. August 14, 2008.

Implementation of Renewable Energy Programs in Rural Business-Cooperative Service.
34601-0005-Ch. July 3, 200821.



20
     Report also discusses information contained under Title X – Horticulture and Organic Agriculture.
21
     Report also discusses information contained under Title VI-Rural Development.

                                                                      REPORT NUMBER 50099-0001-10        63
Cooperative State Research, Education, and Extension Service’s National Research Initiative
Competitive Grants Program. 13601-0001-Hy. May 30, 2008.22

Commodity Credit Corporation: Bioenergy Program. 03601-0025-KC. January 18, 2008.

Title X, Horticulture and Organic Agriculture

Agricultural Marketing Service: National Organic Program – Organic Milk. 01601-0001-Te.
February 27, 2012.

Oversight of the National Organic Program. 01601-0003-Hy. March 9, 2010.

United States Department of Agriculture: Controls over Importation of Transgenic Plants and
Animals. 50601-0017-Te. December 12, 2008.23

Agricultural Marketing Service’s National Organic Program. 01001-0002-Hy. July 14, 2005.

Pesticide Data and Recordkeeping Programs. 01099-0028-At. May 2, 2005.

Controls Over Plant Variety Protection and Germplasm Storage. 50601-0006-Te.
March 4, 2004.

Title XI, Livestock

Implementation of Country of Origin Labeling. 01601-0004-Hy. August 18, 2011.

Animal and Plant Health Inspection Service: Administration of the Horse Protection Program
and the Slaughter Horse Transport Program. 33601-0002-KC. September 30, 2010.

Assessment of the U.S. Department of Agriculture’s Disaster Response Capabilities.
42099-0004-HQ. August 30, 2010.

USDA’s Controls Over Animal Import Centers. 33601-0011-Ch. August 13, 2010.

Food Safety and Inspection Service: Oversight of the Recall by Hallmark/Westland Meat
Packaging Company. 24601-0010-Hy. September 30, 2009.

Animal and Plant Health Inspection Service: Controls Over Pilot Qualification and Suitability.
33099-0008-KC. September 30, 2009.

Assessment of USDA’s Controls to Ensure Compliance with Beef Export Requirements.
50601-0006-Hy. July 15, 2009.



22
     Report also discusses information contained under Title VII-Research and Related Matters.
23
     Report also discusses information contained under Title XI-Livestock.

64         REPORT NUMBER 50099-0001-10
Followup Audit of the Management and Oversight of the Packers and Stockyards Program.
30016-0002-Hy. June 29, 2009

Evaluation of FSIS Management Controls Over Pre-Slaughter Activities. 24601-0007-KC.
November 28, 2008.

Food Safety and Inspection Service: Recall Procedures for Adulterated or Contaminated
Product. 24601-0009-Hy. August 7, 2008.

USDA’s Controls Over the Importation and Movement of Live Animals. 50601-0012-Ch.
March 31, 2008.

USDA’s Implementation of the National Strategy for Pandemic Influenza. 33701-0001-Hy.
January 15, 2008.

Issues Impacting Development of Risk-Based Inspection at Meat and Poultry Processing
Establishments. 24601-0007-Hy. December 4, 2007.

Food Safety and Inspection Service: State Meat and Poultry Inspection Programs.
24005-0001-At. September, 19, 2006.

Animal and Plant Health Inspection Service: Oversight of Avian Influenza. 33099-0011-Hy.
June 12, 2006.

Assessment of USDA’s Controls for The Beef Export Verification Program for Japan.
50601-0011-HQ. February 16, 2006.

Grain Inspection, Packers and Stockyards Administration’s Management and Oversight of the
Packers and Stockyards Programs. 30601-0001-Hy. January 10, 2006.

Food Safety and Inspection Service: Oversight of the 2004 Recall by Quaker Maid Meats, Inc.
24601-0004-Hy. May 18, 2005.

Animal and Plant Health Inspection Service: National Cooperative State/Federal Bovine
Tuberculosis Eradication Program. 33099-0005-Ch. April 20, 2005.

Animal and Plant Health Inspection Service: Oversight of the Importation of Beef Products from
Canada. 33601-0001-Hy. February 14, 2005.

Animal and Plant Health Inspection Service: Exotic Newcastle Disease Eradication Project:
Cooperative/Reimbursable Agreements. 33099-0010-SF. January 20, 2005.

Animal and Plant Health Inspection Service: Wildlife Services, Aircraft Acquisition.
33099-0001-KC. September 30, 2004.




                                                         REPORT NUMBER 50099-0001-10        65
Animal and Plant Health Inspection Service and Food Safety and Inspection Service: Bovine
Spongiform Encephalopathy (BSE) Surveillance Program - Phase I. 50601-0009-KC.
August 18, 2004.

Animal and Plant Health Inspection Service: Wildlife Services’ Controls Over Hazardous
Materials Inventory. 33001-0005-Hy. July 21, 2004.

Food Safety and Inspection Service: Effectiveness Checks for the 2002 Pilgrim’s Pride Recall.
24601-0003-Hy. June 29, 2004.

Food Safety Inspection Service: Oversight of the Listeria Outbreak in the Northeast United
States. 24601-0002-Hy. June 9, 2004.

Title XII, Crop Insurance and Disaster Assistance Programs

Citrus Crop Indemnity Payments from Hurricane Wilma in Florida. 05099-0029-At.
September 7, 2011.

USDA Payments for 2005 Citrus Canker Tree Losses. 50099-0046-At. March 23, 2011.

Risk Management Agency: Activities to Renegotiate the Standard Reinsurance Agreement.
05601-0005-KC. August 27, 2010.

Risk Management Agency: Pasture, Rangeland, and Forage Pilot Program. 50601-0018-Te.
August 27, 2010.

Risk Management Agency: Group Risk Crop Insurance. 05601-0014-Te. March 30, 2010.

Risk Management Agency: Compliance Activities. 05601-0011-At. September 16, 2009.

Risk Management Agency: 2005 Emergency Hurricane Relief Efforts. 05099-0028-At.
March 4, 2009.

Use of National Agricultural Statistics Service County Average Yields for the Group Risk
Protection Plans of Insurance. 05601-0004-KC. March 4, 2009.

Risk Management Agency: Crop Loss and Quality Adjustments for Aflatoxin Infected Corn.
05601-0015-Te. September 30, 2008.

Risk Management Agency’s Improved Financial Management Controls Over Reinsured
Companies. 05099-0111-KC. October 23, 2007.

Risk Management Agency: Asian Soybean Rust. 05099-0113-KC. June 26, 2007.

 Risk Management Agency and Farm Service Agency: Zero Acreage Reporting Compliance.
50099-0051-KC. March 28, 2007.

66     REPORT NUMBER 50099-0001-10
Risk Management Agency: Citrus Indemnity Determinations Made for 2004 Hurricane Damages
in Florida. 05099-0027-At. March 26, 2007.

Risk Management Agency: Adjusted Gross Revenue Program. 05601-0004-SF. January 23, 2007.

Risk Management Agency: New Crop Products Submitted by Private Companies.
05601-0013-Te. February 13, 2006.

Risk Management Agency: Prevented Planting Payments For Cotton Due to Failure of the
Irrigation Water Supply in California and Arizona: Crop Year 2003. 05099-0011-SF.
November 9, 2005.

Risk Management Agency: Survey of Pilot Programs. 05601-0012-Te. May 24, 2005.

Cotton Crop Insurance: Premium Rates. 05601-0007-At. February 10, 2005.

Risk Management Agency: Renegotiation of the Standard Reinsurance Agreement.
05099-0109-KC. January 27, 2005.

Farm Service Agency: Apple Market Loss Assistance Payment Program. 03601-0012-SF.
June 4, 2004.24

Risk Management Agency: Added Land Policy. 05099-0025-At. May 21, 2004.

Risk Management Agency: Established Maximum Price Elections for Agricultural Crops for
2001 and 2002 Crop Years. 05099-0017-KC. March 31, 2004.

Risk Management Agency: Review of Written Agreements. 05601-0011-Te. December 30, 2003.

Title XIII, Commodity Futures

No USDA OIG reports issued between October 1, 2003 & February 29, 2012 related to this title.

Title XIV, Miscellaneous

Food Emergency Response Network. 24601-0006-At. March 22, 2011.

Controls Over APHIS Licensing of Animal Exhibitors. 33601-0010-Ch. June 29, 2010.

Animal and Plant Health Inspection Service: Animal Care Program, Inspections of Problematic
Dealers. 33002-0004-SF. May 14, 2010.


24
  Was in 2002 Farm Bill Title X – Miscellaneous, under Disaster Assistance. This would correspond to Title XII in
the 2008 Farm Bill.


                                                                  REPORT NUMBER 50099-0001-10                67
Farm Service Agency: Socially Disadvantaged Borrower Foreclosures – Farm Program Loans.
03601-0049-Te. June 8, 2009.

Controls Over Permits to Import Agricultural Products. 33601-0009-Ch. October 26, 2007.

USDA Homeland Security Initiatives and Directives. 50701-0002-KC. March 12, 2007.

Review of Customs and Border Protection’s Agriculture Inspection Activities. 33601-0007-Ch.
February 21, 2007.

Animal and Plant Health Inspection Service: Evaluation of the Implementation of the Select
Agent or Toxin Regulations, Phase II. 33601-0003-At. January 17, 2006.

APHIS Animal Care Program Inspection and Enforcement Activities. 33002-0003-SF.
September 30, 2005.

Animal and Plant Health Inspection Service: Evaluation of the Implementation of the Select
Agent or Toxin Regulations, Phase I. 33601-0002-At. June 23, 2005.

Review of Export Licensing Process for Animal and Plant Health Inspection Service Listed
Agents and Toxins. 33601-0004-At. March 31, 2005.

Animal and Plant Health Inspection Service: Transition and Coordination of Border Inspection
Activities Between USDA and DHS. 33601-0005-Ch. March 31, 2005.

Biosecurity Grant Funding, Controls Over Biosecurity Grant Funds Usage. 50099-0017-KC.
February 17, 2005.

Security over Animal and Plant Health Inspection Service’s Owned and Leased Aircraft.
33601-0001-At. September 14, 2004.

Controls Over Chemical and Radioactive Materials at U.S. Department of Agriculture Facilities.
50601-0009-At. March 24, 2004.

Followup Report on the Security of Biological Agents at U.S. Department of Agriculture
Laboratories. 50601-0010-At. March 8, 2004.

Homeland Security Issues for USDA Commodity Inventories. 50099-0013-KC.
February 23, 2004.25

Title XV, Trade and Tax Provisions

Farm Service Agency: Hurricane Relief Initiatives: Livestock Indemnity and Feed Indemnity
Programs. 03601-0023-KC. February 2, 2009.26


25
     Report also discusses information contained under Title I-Commodity Programs.

68         REPORT NUMBER 50099-0001-10
Appendix III: List of Related GAO Products
Reports covering material related to multiple farm bill titles are listed under each relevant title.


 Title I, Commodity Programs

 Follow-up on 2011 Report: Status of Actions Taken to Reduce Duplication, Overlap, and
 Fragmentation, Save Tax Dollars, and Enhance Revenue. GAO-12-453SP.
 Washington, D.C.: February 28, 2012.

 U.S. Department of Agriculture: More Effective Management and Performance Can Help
 Implementation of the Farm Bill. GAO-11-779T. Washington, D.C.: June 23, 2011.

 Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars,
 and Enhance Revenue. GAO-11-318SP. Washington, D.C.: March 1, 2011.

 Federal Farm Programs: USDA Needs to Strengthen Controls to Prevent Payments to
 Individuals Who Exceed Income Eligibility Limits. GAO-09-67. Washington, D.C.:
 October 24, 2008.

 Information Technology: Agriculture Needs to Strengthen Management Practices for
 Stabilizing and Modernizing Its Farm Program Delivery Systems. GAO-08-657.
 Washington, D.C.: May 16, 2008.

 Beginning Farmers: Additional Steps Needed to Demonstrate the Effectiveness of USDA
 Assistance. GAO-07-1130. Washington, D.C.: September 18, 2007.

 Federal Farm Programs: USDA Needs to Strengthen Controls to Prevent Improper
 Payments to Estates and Deceased Individuals. GAO-07-818. Washington, D.C.:
 July 9, 2007.

 Suggested Areas for Oversight for the 110th Congress. GAO-07-235R. Washington, D.C.:
 November 17, 2006.

 Tobacco Settlement: States’ Allocations of Fiscal Year 2005 and Expected Fiscal Year
 2006 Payments. GAO-06-502. Washington, D.C.: April 11, 2006.

 Tobacco Settlement: States’ Allocations of Fiscal Year 2004 and Expected Fiscal Year
 2005 Payments. GAO-05-312. Washington, D.C.: March 21, 2005.

 Dairy Industry: Information on Milk Prices, Factors Affecting Prices, and Dairy Policy



26
     Report also discusses information contained under Title XII-Crop Insurance and Disaster Assistance Programs.

                                                                     REPORT NUMBER 50099-0001-10                69
Options. GAO-05-50. Washington, D.C.: December 29, 2004.

Farm Program Payments: USDA Needs to Strengthen Regulations and Oversight to Better
Ensure Recipients Do Not Circumvent Payment Limitations. GAO-04-407.
Washington, D.C.: April 30, 2004.

Tobacco Settlement: States’ Allocations of Fiscal Year 2003 and Expected Fiscal Year
2004 Payments. GAO-04-518. Washington, D.C.: March 19, 2004.

Tobacco Settlement: States’ Allocations of Fiscal Years 2002 and 2003 Master Settlement
Agreement Payments. GAO-03-407. Washington, D.C.: February 28, 2003.

Title II, Conservation

Chesapeake Bay: Restoration Effort Needs Common Federal and State Goals and
Assessment Approach. GAO-11-802. Washington, D.C.: September 15, 2011.

Recent Actions by the Chesapeake Bay Program Are Positive Steps Toward More
Effectively Guiding the Restoration Effort, But Additional Steps Are Needed.
GAO-08-1131R. Washington, D.C.: August 28, 2008.

Beginning Farmers: Additional Steps Needed to Demonstrate the Effectiveness of USDA
Assistance. GAO-07-1130. Washington, D.C.: September 18, 2007.

US Fish and Wildlife Service: Additional Flexibility Needed to Deal with Farmlands
Received from the Department of Agriculture. GAO-07-1092. Washington, D.C.:
September 18, 2007.

Agricultural Conservation: Farm Program Payments Are an Important Factor in
Landowners’ Decisions to Convert Grassland to Cropland. GAO-07-1054.
Washington, D.C.: September 10, 2007.

Agricultural Conservation: USDA Should Improve Its Management of Key Conservation
Programs to Ensure Payments Promote Environmental Goals. GAO-07-370T.
Washington, D.C.: January 17, 2007.

Suggested Areas for Oversight for the 110th Congress. GAO-07-235R. Washington, D.C.:
November 17, 2006.

USDA Conservation Programs: Stakeholder Views on Participation and Coordination to
Benefit Threatened and Endangered Species and Their Habitats. GAO-07-35.
Washington, D.C.: November 15, 2006.

Agricultural Conservation: USDA Should Improve Its Process for Allocating Funds to
States for the Environmental Quality Incentives Program. GAO-06-969. Washington, D.C.:
September 22, 2006.

70    REPORT NUMBER 50099-0001-10
Conservation Security Program: Despite Cost Controls, Improved USDA Management Is
Needed to Ensure Proper Payments and Reduce Duplication with Other Programs.
GAO-06-312. Washington, D.C.: April 28, 2006.

Chesapeake Bay Program: Improved Strategies Are Needed to Better Assess, Report, and
Manage Restoration Progress. GAO-06-96. Washington, D.C.: October 28, 2005.

Environmental Information: Status of Federal Data Programs That Support Ecological
Indicators. GAO-05-376. Washington, D.C.: September 2, 2005.

Freshwater Programs: Federal Agencies’ Funding in the United States and Abroad.
GAO-05-253. Washington, D.C.: March 11, 2005.

Agricultural Conservation: USDA Should Improve Its Methods for Estimating Technical
Assistance Costs. GAO-05-58. Washington, D.C.: November 30, 2004.

Agricultural Conservation: USDA Needs to Better Ensure Protection of Highly Erodible
Cropland and Wetlands. GAO-03-418. Washington, D.C.: April 21, 2003.

Title III, Trade

International Food Assistance: Funding Development Projects through the Purchase,
Shipment, and Sale of U.S. Commodities Is Inefficient and Can Cause Adverse Market Impacts.
GAO-11-636. Washington, D.C.: June 23, 2011.

International School Feeding: USDA’s Oversight of the McGovern-Dole Food for Education
Program Needs Improvement. GAO-11-544. Washington, D.C.: May 19, 2011.

International Food Assistance: Better Nutrition and Quality Control Can Further Improve U.S.
Food Aid. GAO-11-491. Washington, D.C.: May 12, 2011.

International Trade: Exporters’ Use of the Earned Import Allowance Program for Haiti is
Negligible because They Favor Other Trade Provisions. GAO-10-654. Washington, D.C.:
June 16, 2010.

Global Food Security: U.S. Agencies Progressing on Governmentwide Strategy, but Approach
Faces Several Vulnerabilities. GAO-10-352. Washington, D.C.: March 11, 2010.

Softwood Lumber Act of 2008: Customs and Border Protection Established Required
Procedures, but Agencies Report Little Benefit from New Requirements. GAO-10-220.
Washington, D.C.: December 18, 2009.

International Food Assistance: Key Issues for Congressional Oversight. GAO-09-977SP.
Washington, D.C.: September 30, 2009.

International Food Assistance: USAID Is Taking Actions to Improve Monitoring and


                                                      REPORT NUMBER 50099-0001-10         71
Evaluation of Nonemergency Food Aid, but Weaknesses in Planning Could Impede Efforts.
GAO-09-980. Washington, D.C.: September 28, 2009.

U.S. and Canadian Governments Have Established Mechanisms to Monitor Compliance with
the 2006 Softwood Lumber Agreement but Face Operational Challenges. GAO-09-764R.
Washington, D.C.: June 18, 2009.

International Food Assistance: Local and Regional Procurement Can Enhance the Efficiency of
U.S. Food Aid, but Challenges May Constrain Its Implementation. GAO-09-570.
Washington, D.C.: May 29, 2009.

International Food Security: Insufficient Efforts by Host Governments and Donors Threaten
Progress to Halve Hunger in Sub-Saharan Africa by 2015. GAO-08-680. Washington, D.C.:
May 29, 2008.

Foreign Assistance: Various Challenges Impede the Efficiency and Effectiveness of U.S. Food
Aid. GAO-07-560. Washington, D.C.: April 13, 2007.

Title IV, Nutrition

Follow-up on 2011 Report: Status of Actions Taken to Reduce Duplication, Overlap, and
Fragmentation, Save Tax Dollars, and Enhance Revenue. GAO-12-453SP. Washington, D.C.:
February 28, 2012.

U.S. Department of Agriculture: More Effective Management and Performance Can Help
Implementation of the Farm Bill. GAO-11-779T. Washington, D.C.: June 23, 2011.

School Meal Programs: More Systematic Development of Specifications Could Improve the
Safety of Foods Purchased through USDA’s Commodity Program. GAO-11-376.
Washington, D.C.: May 3, 2011.

Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars,
and Enhance Revenue. GAO-11-318SP. Washington, D.C.: March 1, 2011.

Supplemental Nutrition Assistance Program: Payment Errors and Trafficking Have Declined,
but Challenges Remain. GAO-10-956T. Washington, D.C.: July 28, 2010.

Domestic Food Assistance: Complex System Benefits Millions, but Additional Efforts Could
Address Potential Inefficiency and Overlap among Smaller Programs. GAO-10-346.
Washington, D.C.: April 15, 2010.

School Meal Programs: Improved Reviews, Federal Guidance, and Data Collection Needed to
Address Counting and Claiming Errors. GAO-09-814. Washington, D.C.: September 9, 2009.

School Meal Programs: Changes to Federal Agencies’ Procedures Could Reduce Risk of
School Children Consuming Recalled Food. GAO-09-649. Washington, D.C.: August 20, 2009.

72    REPORT NUMBER 50099-0001-10
School Meal Programs: Experiences of the States and Districts that Eliminated Reduced-price
Fees. GAO-09-584. Washington, D.C.: July 17, 2009.

Sponsored Noncitizens and Public Benefits: More Clarity in Federal Guidance and Better
Access to Federal Information Could Improve Implementation of Income Eligibility Rules.
GAO-09-375. Washington, D.C.: May 19, 2009.

Meal Counting and Claiming by Food Service Management Companies in the School Meal
Programs. GAO-09-156R. Washington, D.C.: January 30, 2009.

Food Stamp Program: Options for Delivering Financial Incentives to Participants for
Purchasing Targeted Foods. GAO-08-415. Washington, D.C.: July 30, 2008.

Food Stamp Program: Use of Alternative Methods to Apply for and Maintain Benefits Could Be
Enhanced by Additional Evaluation and Information on Promising Practices. GAO-07-573.
Washington, D.C.: May 3, 2007.

Food Stamp Program: FNS Could Improve Guidance and Monitoring to Help Ensure
Appropriate Use of Noncash Categorical Eligibility. GAO-07-465. Washington, D.C.:
March 28, 2007.

Food Stamp Trafficking: FNS Could Enhance Program Integrity by Better Targeting Stores
Likely to Traffic and Increasing Penalties. GAO-07-53. Washington, D.C.: October 13, 2006.

WIC Program: More Detailed Price and Quantity Data Could Enhance Agriculture’s
Assessment of WIC Program Expenditures. GAO-06-664. Washington, D.C.: July 28, 2006.

Food Assistance: FNS Could Take Additional Steps to Contain WIC Infant Formula Costs.
GAO-06-380. Washington, D.C.: March 28, 2006.

Breastfeeding: Some Strategies Used to Market Infant Formula May Discourage Breastfeeding;
State Contracts Should Better Protect Against Misuse of WIC Name. GAO-06-282.
Washington, D.C.: February 8, 2006.

School Meal Programs: Competitive Foods Are Widely Available and Generate Substantial
Revenues for Schools. GAO-05-563. Washington, D.C.: August 8, 2005.

Food Stamp Program: States Have Made Progress Reducing Payment Errors, and Further
Challenges Remain. GAO-05-245. Washington, D.C.: May 5, 2005.

Food Stamp Program: Farm Bill Options Ease Administrative Burden, but Opportunities Exist
to Streamline Participant Reporting Rules among Programs. GAO-04-916. Washington, D.C.:
September 16, 2004.

Nutrition Education: USDA Provides Services through Multiple Programs, but Stronger


                                                      REPORT NUMBER 50099-0001-10         73
Linkages among Efforts Are Needed. GAO-04-528. Washington, D.C.: April 27, 2004.

School Meal Programs: Competitive Foods Are Available in Many Schools; Actions Taken to
Restrict Them Differ by State and Locality. GAO-04-673. Washington, D.C.: April 23, 2004.

Food Stamp Program: Steps Have Been Taken to Increase Participation of Working Families,
but Better Tracking of Efforts Is Needed. GAO-04-346. Washington, D.C.: March 5, 2004.

Opportunities for Oversight and Improved Use of Taxpayer Funds; Examples from Selected
GAO Work. GAO-03-1006. Washington, D.C.: August 1, 2003.

School Meal Programs: Few Instances of Foodborne Outbreaks Reported, but Opportunities
Exist to Enhance Outbreak Data and Food Safety Practices. GAO-03-530. Washington, D.C.:
May 9, 2003.

School Meal Programs: Revenue and Expense Information from Selected States. GAO-03-569.
Washington, D.C.: May 9, 2003.

School Lunch Program: Efforts Needed to Improve Nutrition and Encourage Healthy Eating.
GAO-03-506. Washington, D.C.: May 9, 2003.

Food Stamp Employment and Training Program: Better Data Needed to Understand Who Is
Served and What the Program Achieves. GAO-03-388. Washington, D.C.: March 12, 2003.

Food Assistance: Potential to Serve More WIC Infants by Reducing Formula Cost.
GAO-03-331. Washington, D.C.: February 12, 2003.

Title V, Credit

Beginning Farmers: Additional Steps Needed to Demonstrate the Effectiveness of USDA
Assistance. GAO-07-1130. Washington, D.C.: September 18, 2007.

Farm Loan Programs: GAO Reports on USDA Lending Practices. GAO-06-912R. Washington,
D.C.: June 28, 2006.

Title VI, Rural Development

2012 Annual Report: Opportunities to Reduce Duplication, Overlap and Fragmentation,
Achieve Savings, and Enhance Revenue. GAO-12-342SP. Washington, D.C.:
February 28, 2012.

Follow-up on 2011 Report: Status of Actions Taken to Reduce Duplication, Overlap, and
Fragmentation, Save Tax Dollars, and Enhance Revenue. GAO-12-453SP. Washington, D.C.:
February 28, 2012.

U.S. Department of Agriculture: More Effective Management and Performance Can Help

74    REPORT NUMBER 50099-0001-10
Implementation of the Farm Bill. GAO-11-779T. Washington, D.C.: June 23, 2011.

Efficiency and Effectiveness of Fragmented Economic Development Programs Are Unclear.
GAO-11-477R. Washington, D.C.: May 19, 2011.

Department of Agriculture, Rural Utilities Service: Rural Broadband Access Loans and Loan
Guarantees. GAO-11-541R. Washington, D.C.: April 7, 2011.

Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars,
and Enhance Revenue. GAO-11-318SP. Washington, D.C.: March 1, 2011.

The Housing Assistance Council’s Use of Appropriated Funds. GAO-11-189R.
Washington, D.C.: December 6, 2010.

Rural Water Infrastructure: Improved Coordination and Funding Processes Could Enhance
Federal Efforts to meet Needs in the U.S.-Mexico Border Region. GAO-10-126.
Washington, D.C.: December 18, 2009.

Telecommunications: Broadband Deployment Plan Should Include Performance Goals and
Measures to Guide Federal Investment. GAO-09-494. Washington, D.C.: May 12, 2009.

Rural Economic Development: Collaboration between SBA and USDA Could Be Improved.
GAO-08-1123. Washington, D.C.: September 18, 2008.

Federal Electricity Subsidies: Information on Research Funding, Tax Expenditures, and Other
Activities That Support Electricity Production. GAO-08-102. Washington, D.C.:
October 26, 2007.

Water Resources: Four Federal Agencies Provide Funding for Rural Water Supply and
Wastewater Projects. GAO-07-1094. Washington, D.C.: September 7, 2007.

Telecommunications: Broadband Deployment Is Extensive throughout the United States, but It
Is Difficult to Assess the Extent of Deployment Gaps in Rural Areas. GAO-06-426.
Washington, D.C.: May 5, 2006.

Rural Economic Development: More Assurance Is Needed That Grant Funding Information Is
Accurately Reported. GAO-06-294. Washington, D.C.: February 24, 2006.

Rural Housing Service: Overview of Program Issues. GAO-05-382T. Washington, D.C.:
March 10, 2005.

Information Resource Management Internal Control Issues. GAO-05-288R. Washington, D.C.:
March 10, 2005.

Rural Housing: Changing the Definition of Rural Could Improve Eligibility Determinations.
GAO-05-110. Washington, D.C.: December 3, 2004.


                                                      REPORT NUMBER 50099-0001-10           75
Rural Utilities Service: Opportunities to Better Target Assistance to Rural Areas and Avoid
Unnecessary Financial Risk. GAO-04-647. Washington, D.C.: June 18, 2004.

Rural Housing Service: Opportunities to Improve Management. GAO-03-911T.
Washington, D.C.: June 19, 2003.

Title VII, Research and Related Matters

2012 Annual Report: Opportunities to Reduce Duplication, Overlap and Fragmentation,
Achieve Savings, and Enhance Revenue. GAO-12-342SP. Washington, D.C.:
February 28, 2012.

Follow-up on 2011 Report: Status of Actions Taken to Reduce Duplication, Overlap, and
Fragmentation, Save Tax Dollars, and Enhance Revenue. GAO-12-453SP. Washington, D.C.:
February 28, 2012.

Antibiotic Resistance: Agencies Have Made Limited Progress Addressing Antibiotic Use in
Animals. GAO-11-801. Washington, D.C.: September 7, 2011.

Homeland Security: Actions Needed to Improve Response to Potential Terrorist Attacks and
Natural Disasters Affecting Food and Agriculture. GAO-11-652. Washington, D.C.:
August 19, 2011.

Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars,
and Enhance Revenue. GAO-11-318SP. Washington, D.C.: March 1, 2011.

Live Animal Imports: Agencies Need Better Collaboration to Reduce the Risk of Animal-
Related Diseases. GAO-11-9. Washington, D.C.: November 8, 2010.

Biosurveillance: Efforts to Develop a National Biosurveillance Capability Need a National
Strategy and a Designated Leader. GAO-10-645. Washington, D.C.: June 30, 2010.

Biological Research: Observations on DHS’s Analyses Concerning Whether FMD Research
Can Be Done as Safely on the Mainland as on Plum Island. GAO-09-747. Washington, D.C.:
July 30, 2009.

Genetically Engineered Crops: Agencies Are Proposing Changes to Improve Oversight, but
Could Take Additional Steps to Enhance Coordination and Monitoring. GAO-09-60.
Washington, D.C.: December 5, 2008.

Agricultural Quarantine Inspection Program: Management Problems May Increase
Vulnerability of U.S. Agriculture to Foreign Pests and Diseases. GAO-08-96T.
Washington, D.C.: October 3, 2007.

Plum Island Animal Disease Center: DHS Has Made Significant Progress Implementing

76    REPORT NUMBER 50099-0001-10
Security Recommendations, but Several Recommendations Remain Open. GAO-08-306R.
Washington, D.C.: December 17, 2007.

Avian Influenza: USDA Has Taken Important Steps to Prepare for Outbreaks, but Better
Planning Could Improve Response. GAO-07-652. Washington, D.C.: June 11, 2007.

USDA: Information on Classical Plant and Animal Breeding Activities. GAO-07-1171R.
Washington, D.C.: September 13, 2007.

Homeland Security: Management and Coordination Problems Increase the Vulnerability of
U.S. Agriculture to Foreign Pests and Disease. GAO-06-644. Washington, D.C.:
May 19, 2006.

Agriculture Production: USDA Needs to Build on 2005 Experience to Minimize the Effects of
Asian Soybean Rust in the Future. GAO-06-337. Washington, D.C.: February 24, 2006.

Plum Island Animal Disease Center: DHS and USDA Are Successfully Coordinating Current
Work, but Long-Term Plans Are Being Assessed. GAO-06-132. Washington, D.C.:
December 19, 2005.

Agriculture Production: USDA’s Preparation for Asian Soybean Rust. GAO-05-668R.
Washington, D.C.: May 17, 2005.

Homeland Security: Much Is Being Done to Protect Agriculture from a Terrorist Attack, but
Important Challenges Remain. GAO-05-214. Washington, D.C.: March 8, 2005.

Combating Bioterrorism: Actions Needed to Improve Security at Plum Island Animal Disease
Center. GAO-03-847. Washington, D.C.: September 19, 2003.

Title VIII, Forestry

U.S. Department of Agriculture: More Effective Management and Performance Can Help
Implementation of the Farm Bill. GAO-11-779T. Washington, D.C.: June 23, 2011.

Forest Service Research and Development: Improvements in Delivery of Research Results Can
Help Ensure That Benefits of Research Are Realized. GAO-11-12. Washington, D.C.:
October 29, 2010.

Title IX, Energy

Follow-up on 2011 Report: Status of Actions Taken to Reduce Duplication, Overlap, and
Fragmentation, Save Tax Dollars, and Enhance Revenue. GAO-12-453SP. Washington, D.C.:
February 28, 2012.

Biofuels: Challenges to the Transportation, Sale, and Use of Intermediate Ethanol Blends.
GAO-11-513. Washington, D.C.: June 3, 2011.


                                                       REPORT NUMBER 50099-0001-10          77
Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars,
and Enhance Revenue. GAO-11-318SP. Washington, D.C.: March 1, 2011.

Biofuels: Potential Effects and Challenges of Required Increases in Production and Use.
GAO-09-446. Washington, D.C.: August 25, 2009.

Biofuels: DOE Lacks a Strategic Approach to Coordinate Increasing Production with
Infrastructure Development and Vehicle Needs. GAO-07-713. Washington, D.C.: June 8, 2007.

Wood Utilization: Federal Research and Product Development Activities, Support, and
Technology Transfer. GAO-06-624. Washington, D.C.: June 15, 2006.

Natural Resources: Woody Biomass Users’ Experiences Offer Insights for Government Efforts
Aimed at Promoting Its Use. GAO-06-336. Washington, D.C.: March 22, 2006.

Natural Resources: Federal Agencies Are Engaged in Various Efforts to Promote the
Utilization of Woody Biomass, but Significant Obstacles to Its Use Remain. GAO-05-373.
Washington, D.C.: May 13, 2005.

Renewable Energy: Wind Power’s Contribution to Electric Power Generation and Impact on
Farms and Rural Communities. GAO-04-756. Washington, D.C.: September 3, 2004.

Biobased Products: Improved USDA Management Would Help Agencies Comply with Farm
Bill Purchasing Requirements. GAO-04-437. Washington, D.C.: April 7, 2004.

Title X, Horticulture and Organic Agriculture

No GAO reports meeting our selection criteria were issued between 2003 and March 2012
related to this title.

Title XI, Livestock

U.S. Department of Agriculture: More Effective Management and Performance Can Help
Implementation of the Farm Bill. GAO-11-779T. Washington, D.C.: June 23, 2011.

Horse Welfare: Action Needed to Address Unintended Consequences from Cessation of
Domestic Slaughter. GAO-11-228. Washington, D.C.: June 22, 2011.

Live Animal Imports: Agencies Need Better Collaboration to Reduce the Risk of Animal-
Related Diseases. GAO-11-9. Washington, D.C.: November 8, 2010.

Animal Welfare: USDA’s Oversight of Dealers of Random Source Dogs and Cats Would
Benefit from Additional Management Information and Analysis. GAO-10-945.
Washington, D.C.: September 24, 2010.

Humane Methods of Slaughter Act: Actions Are Needed to Strengthen Enforcement.
78    REPORT NUMBER 50099-0001-10
GAO-10-203. Washington, D.C.: February 19, 2010.

Veterinarian Workforce: Actions Are Needed to Ensure Sufficient Capacity for Protecting
Public and Animal Health. GAO-09-178. Washington, D.C.: February 4, 2009.

Humane Methods of Handling and Slaughter: Public Reporting on Violations Can Identify
Enforcement Challenges and Enhance Transparency. GAO-08-686T. Washington, D.C.:
April 17, 2008.

Humane Methods of Slaughter Act: USDA Has Addressed Some Problems but Still Faces
Enforcement Challenges. GAO-04-247. Washington, D.C.: January 30, 2004.

Country-of-Origin Labeling: Opportunities for USDA and Industry to Implement Challenging
Aspects of the New Law. GAO-03-780. Washington, D.C.: August 5, 2003.

Title XII, Crop Insurance and Disaster Assistance Programs

Crop Insurance: Savings Would Result from Program Changes and Greater Use of Data
Mining. GAO-12-256. Washington, D.C.: March 13, 2012.

U.S. Department of Agriculture: More Effective Management and Performance Can Help
Implementation of the Farm Bill. GAO-11-779T. Washington, D.C.: June 23, 2011.

USDA Crop Disaster Programs: Lessons Learned Can Improve Implementation of New Crop
Assistance Program. GAO-10-548. Washington, D.C.: June 4, 2010.

Small Business Administration: Continued Attention Needed to Address Reforms to the Disaster
Loan Program. GAO-10-735T. Washington, D.C.: May 19, 2010.

Crop Insurance: Opportunities Exist to Reduce the Costs of Administering the Program.
GAO-09-445. Washington, D.C.: April 29, 2009.

Beginning Farmers: Additional Steps Needed to Demonstrate the Effectiveness of USDA
Assistance. GAO-07-1130. Washington, D.C.: September 18, 2007.

Crop Insurance: Continuing Efforts Are Needed to Improve Program Integrity and Ensure
Program Costs Are Reasonable. GAO-07-944T. Washington, D.C.: June 7, 2007.

Suggested Areas for Oversight for the 110th Congress. GAO-07-235R. Washington, D.C.:
November 17, 2006.

Crop Insurance: Actions Needed to Reduce Program’s Vulnerability to Fraud, Waste, and
Abuse. GAO-05-528. Washington, D.C.: September 30, 2005.

Crop Insurance: USDA Needs to Improve Oversight of Insurance Companies and Develop a
Policy to Address Any Future Insolvencies. GAO-04-517. Washington, D.C.: June 1, 2004.


                                                      REPORT NUMBER 50099-0001-10         79
Title XIII, Commodity Futures

Commodity Futures Trading Commission: Trends in Energy Derivatives Markets Raise
Questions about CFTC's Oversight. GAO-08-25. Washington, D.C.: October 19, 2007.

Title XIV, Miscellaneous

U.S. Department of Agriculture: More Effective Management and Performance Can Help
Implementation of the Farm Bill. GAO-11-779T. Washington, D.C.: June 23, 2011.

US Department of Agriculture: Recommendations and Options to Address Management
Deficiencies in the Office of the Assistant Secretary for Civil Rights. GAO-09-62.
Washington, D.C.: October 22, 2008.

Title XV, Trade and Tax Provisions

No GAO reports meeting our selection criteria were issued between 2003 and March 2012
related to this title.




80   REPORT NUMBER 50099-0001-10
Abbreviations
Abbreviation    Full Name


AIP             approved insurance provider
ALERT           Anti-Fraud Locator Using EBT Retailer Transactions
AMS             Agricultural Marketing Service
APHIS           Animal and Plant Health Inspection Service
ARS             Agricultural Research Service
AWA             Animal Welfare Act
B&I             Business and Industry
BCAP            Biomass Crop Assistance Program
CACFP           Child and Adult Care Food Program
CBO             Congressional Budget Office
CBP             Customs and Border Protection
CCD             Colony Collapse Disorder
CONACT          Consolidated Farm and Rural Development Act
COOL            country of origin labeling
DHS             Department of Homeland Security
EBT             electronic benefits transfer
EQIP            Environmental Quality Incentives Program
FAS             Foreign Agricultural Service
FBI             Federal Bureau of Investigation
FCIP            Federal Crop Insurance Program
FMIA            Federal Meat Inspection Act
FMV             fair market value
FNS             Food and Nutrition Service
FRPP            Farm and Ranch Lands Protection Program
FS              Forest Service
FSP             Food Stamp Program
FSA             Farm Service Agency
FSIS            Food Safety and Inspection Service



                                                  REPORT NUMBER 50099-0001-10   81
FY                   fiscal year
GAO                  Government Accountability Office
GE                   genetically engineered
GPRA                 Government Performance and Results Act
HPA                  Horse Protection Act
IT                   information technology
MILC                 Milk Income Loss Contract Program
NASS                 National Agricultural Statistics Service
NIFA                 National Institute of Food and Agriculture
NRCS                 Natural Resources Conservation Service
NSLP                 National School Lunch Program
OGC                  Office of the General Counsel
OIG                  Office of Inspector General
POS                  point of sale
PVO                  private voluntary organization
RBS                  Rural Business-Cooperative Service
REAP                 Rural Energy for America Program
Recovery Act         American Recovery and Reinvestment Act of 2009
RHS                  Rural Housing Service
RMA                  Risk Management Agency
RUS                  Rural Utilities Service
SFA                  school food authority
SNAP                 Supplemental Nutrition Assistance Program
USAID                U.S. Agency for International Development
USDA                 U.S. Department of Agriculture
WIC                  Special Supplemental Nutrition Program for Women,
                     Infants, and Children




82     REPORT NUMBER 50099-0001-10
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
